<html>
<title> - ECSTASY USE RISES: WHAT MORE NEEDS TO BE DONE BY THE GOVERNMENT TO COMBAT THE PROBLEM?</title>
<body><pre>[Senate Hearing 107-154]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-154

  ECSTASY USE RISES: WHAT MORE NEEDS TO BE DONE BY THE GOVERNMENT TO 
                          COMBAT THE PROBLEM?

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 30, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs

                  U.S. GOVERNMENT PRINTING OFFICE
75-475                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                    Jinnett Rona-Finley, Fellow, CIA
           Kiersten Todt Coon, Fellow for Senator Lieberman,
           White House Office of National Drug Control Policy
         Hannah S. Sistare, Minority Staff Director and Counsel
        William M. Outhier, Investgative Counsel to the Minority
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Bunning..............................................     3
    Senator Akaka................................................     4
Prepared statement:
    Senator Levin................................................    38

                               WITNESSES
                         Monday, July 30, 2001

Dayna Moore, Phoenix House Drug Rehabilitation Center............     5
Philip McCarthy, Phoenix House Drug Rehabilitation Center........     6
Donald R. Vereen, Jr., M.D., M.P.H., Deputy Director, Office of 
  National Drug Control Policy, Executive Office of the President    13
Alan I. Leshner, Ph.D., Director, National Institute on Drug 
  Abuse, National Institutes of Health...........................    16
John C. Varrone, Assistant Commissioner of Customs, Office of 
  Investigations, U.S. Customs Service...........................    18
Joseph D. Keefe, Chief of Operations, Drug Enforcement 
  Administration, U.S. Department of Justice.....................    20
John M. Bailey, Chief State's Attorney, State of Connecticut.....    22
Roy Rutland, Detective, Narcotics Bureau, Miami-Dade Police 
  Department.....................................................    24

                     Alphabetical List of Witnesses

Bailey, John M.:
    Testimony....................................................    22
    Prepared statement...........................................    81
Keefe, Joseph D.:
    Testimony....................................................    20
    Prepared statement...........................................    70
Leshner, Alan I., Ph.D.:
    Testimony....................................................    16
    Prepared statement with an attachment........................    53
McCarthy, Philip:
    Testimony....................................................     6
    Prepared statement...........................................    42
Moore, Dayna:
    Testimony....................................................     5
    Prepared statement...........................................    39
Rutland, Roy:
    Testimony....................................................    24
    Prepared statement...........................................    84
Varrone, John C.:
    Testimony....................................................    18
    Prepared statement with an attachment........................    63
Vereen, Donald R., Jr., M.D., M.P.H:
    Testimony....................................................    13
    Prepared statement with an attachment........................    45

 
  ECSTASY USE RISES: WHAT MORE NEEDS TO BE DONE BY THE GOVERNMENT TO 
                          COMBAT THE PROBLEM?

                              ----------                              


                         MONDAY, JULY 30, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, and Bunning.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this 
hearing of the Senate Governmental Affairs Committee, in which 
we will begin to examine the threat posed by the drug Ecstasy 
and the government's response to increasing Ecstasy use and 
abuse by our Nation's youth. I began to hear about Ecstasy 
earlier this year from concerned parents and from the media. 
During April, I asked to meet with law enforcement authorities, 
parents and students in Connecticut, and I learned a lot about 
this latest threat to our children. I learned that it is 
entering our country in ever-growing quantities; that the 
increase in use by our Nation's youth has reached arguably 
epidemic proportions, and that despite the evidence to the 
contrary, kids do not think Ecstasy is a harmful drug.
    What I have not learned enough about yet is if the 
government at all levels is doing all that it can to stop the 
continued spread of this drug, and that is one of the key 
questions that we will explore this morning at this hearing.
    According to a recent study, the number of eighth graders 
using Ecstasy at least once in the past year increased 82 
percent between 1999 and 2000, 82 percent, and the number of 
those using it within the past month increased 75 percent. 
While the overall percentage of our young people using this 
drug remains low in absolute terms, the testimony of one of the 
witnesses that we are honored to have before us today points 
out that Ecstasy has now replaced inhalants as the third-most 
frequently used drug among high school seniors in America, and 
that is behind marijuana and methamphetamines.
    The U.S. Customs Service reports that its Ecstasy seizures 
have surged 165 percent between fiscal year 1999 and 2000. 
These are alarming statistics that were brought home to me 
during the meetings I had in Connecticut in April. Ecstasy is a 
problem at so-called raves and at schools, in cities, and in 
suburbs.
    In fact, on the very same day that I was to meet with law 
enforcement about this drug in Connecticut, police arrested an 
individual who was trying to use a methamphetamine lab to 
manufacture Ecstasy in the small Connecticut town of North 
Stonington. During my meetings, I was surprised to learn not 
only how dramatically Ecstasy use is increasing among young 
people, but also how so many of those young people mistakenly 
believe that it does no harm. Ecstasy is far from benign, as we 
will hear today. Its dangers are well-documented and painfully 
experienced. Ecstasy is toxic to the human nervous system. It 
can lead to kidney and cardiovascular failure. It can overload 
the heart, causing attacks or strokes, and especially troubling 
because we are talking about young people, the drug can impede 
a user's ability to learn and to remember.
    Because this drug is beginning to do serious damage to 
people in our country, particularly young people, I think we 
have an obligation to educate and to warn them and their 
parents about its danger, and then to do what we can to 
coordinate Federal, State and local law enforcement efforts 
against Ecstasy. We are going to start today's hearing by 
listening to two young people who are courageous enough to be 
willing to come forward and speak to us today, Dayna Moore and 
Philip McCarthy, who have fought an addiction to Ecstasy. I 
appreciate very much their willingness to testify and I have 
the feeling that more than anything else that anybody says 
today, your testimony really will make this hearing worthwhile 
and send a message out to other teenagers, particularly about 
the dangers here.
    We are then going to hear from a panel of Federal, State 
and local officials. Dr. Alan Leshner of the National Institute 
on Drug Abuse will discuss his work that makes clear that 
Ecstasy is not a harmless drug. Dr. Donald Vereen of the Office 
of National Drug Control Policy, also known as the Drug Czar's 
office, will offer us an overview of the many facets of our 
government's war on this particular drug. Joseph Keefe, Chief 
of Operations at DEA, and a representative of the Customs 
Commissioner--I know Mr. Winwood was supposed to be here, but 
he has been detained and a deputy of his is with us--
respectively will tell us of the challenges Ecstasy poses to 
Federal law enforcement; Miami-Dade police officer, Roy 
Rutland, who will testify behind a screen because much of his 
work is undercover; and finally Connecticut State's Attorney 
Jack Bailey will give us State and local law enforcement's 
perspective on this latest drug epidemic and threat to our 
children.
    Today, I hope these Federal, State and local officials will 
provide a comprehensive picture of what the government is and 
is not doing right now and what we in Congress can do to help 
them do more. I welcome all of the witnesses, and particularly 
want to give a special greeting to my longtime friend, Jack 
Bailey from Connecticut, who has had some considerable success 
in fighting Ecstasy through his office's Nuisance Abatement 
Unit, which we will hear about.
    Before turning to the first panel, I want to explain the 
screen in the well to my left. As I already mentioned, one of 
our witnesses on the second panel, Detective Rutland, is an 
undercover detective. Many of the people with whom he works are 
unaware of his true identity. Should a photograph of Detective 
Rutland appear on television or in the newspapers in his 
hometown, it would greatly increase the chances of compromising 
his identity and indeed his personal safety, as well, and 
possibly affect the outcome of one or more investigations. In 
light of this, Detective Rutland has requested that no 
television, video cameras or other cameras photograph him 
during his testimony.
    In accordance with the Committee's rules of procedure, 
without objection, we are granting his request. Detective 
Rutland is now sitting before us with a screen around him in 
order to protect his identity. In addition, no television 
cameras or other photographs will be permitted of him during 
this session, although cameras can televise or photograph the 
proceedings from the other side of the screen and, of course, 
of the other witnesses. I appreciate the cooperation of the 
news media in this, and I would now call on my friend and 
colleague, Senator Akaka, for an opening statement--I am sorry, 
Senator Bunning?
    Senator Bunning. Yes, I have a short opening statement.
    Chairman Lieberman. You moved quietly into the room.
    Senator Bunning. I was here before you got here.
    Chairman Lieberman. Thank you. That may be why.
    Senator Bunning. That is how quietly I got here.
    Chairman Lieberman. You are a big man, too. I thank you 
very much for being here. We will call on Senator Bunning now.

              OPENING STATEMENT OF SENATOR BUNNING

    Senator Bunning. Thank you, Mr. Chairman. The use of 
illegal drugs is a serious problem in this country, and I am 
pleased that we are holding this hearing today on Ecstasy. Drug 
abuse not only affects the drug addicts and users, instead, 
these illegal drugs take a toll on the whole community, from 
increasing crime to breaking apart families, to a general decay 
of the community structure. In my State of Kentucky, Ecstasy 
has not yet gained a strong foothold. Right now, drugs like 
marijuana are more of a problem. In fact, according to the 
National Drug Intelligence Center, Kentucky law enforcement 
contends that marijuana is the State's largest cash crop, and 
that Daniel Boone National Forest, which is located in eastern 
Kentucky, has become one of the primary areas for growing 
marijuana plants in the State. Daniel Boone National Forest 
happens to be a park that encompasses about--I would say about 
one-fifth of the State land mass. So you can imagine how big 
and how often we have illegal marijuana grown there. This is 
nothing to be proud of.
    Although Ecstasy has been around for many years, its 
increasing use and trafficking in the United States is 
alarming. Unfortunately, Kentucky is not isolated from this 
trend, and in the Cincinnati-Northern Kentucky Airport, the 
airport has seized approximately 50,000 Ecstasy tablets from 
three flights originating in Belgium from November 1999 to 
March 2000. Also, in July 2000, the airport seized an 
additional 1.44 kilograms of Ecstasy on a flight originating in 
Los Angeles. So it is a constant battle in the Greater 
Cincinnati Airport because of the international traffic.
    In Kentucky, the drugs are primarily sold in high schools 
and colleges, clubs, and all-night raves. Raves have been held 
in Louisville, Bowling Green, Covington, Erlanger, Lexington, 
Murray, and Newport, which are not very big towns, except for 
Louisville. As the demand for this drug rises, I am afraid we 
will see an increase in deaths of our young people and an 
increase in violence often associated with selling drugs. I am 
looking forward especially to hearing from the first panel, the 
two young people who have the courage to come forth and tell us 
the problems that can come from an addiction to drugs.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Bunning and Senator 
Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I wish to 
express my appreciation for your holding today's hearing on the 
rising use of MDMA, or Ecstasy. As all witnesses will testify, 
Ecstasy, the fastest-growing illegal drug, is a dangerous 
chemical and a public health problem. Its perception as a safe 
and harmless mood-enhancing drug is false. There are serious 
side effects, including brain damage, depression, and possibly 
death. Brain damage, depression, death--this does not sound 
like Ecstasy to me. The use of Ecstasy is on the rise in my 
home State of Hawaii. It is the only illicit drug to show 
increased levels of abuse last year.
    According to a recent study by the Hawaii Department of 
Health, the use of Ecstasy is increasing, particularly among 
high school students. Although Ecstasy use in Hawaii is below 
the national average, unfortunately my State has not always 
lagged behind the mainland on emerging drug use. Hawaii's law 
enforcement agencies and health officials were the first to 
identify the threat of crystal methamphetamine, known in the 
islands as ice or crystal meth. This smokable form of 
methamphetamine came to Hawaii in the mid-1980's and continues 
to be the biggest drug problem facing our State. Eleven years 
ago, I proposed the first Federal legislation to increase the 
penalties for trafficking in crystal meth. I also sponsored 
legislation to place restrictions on the purchase of precursor 
drugs, the chemical components used to manufacture crystal 
meth.
    While ice remains the overall illegal drug of choice in 
Hawaii, law enforcement and public health officials are 
targeting Ecstasy, as well. In 1999, Hawaii was designated as a 
high-intensity drug-trafficking area, or HIDTA, which is 
helping to interdict the flow of drugs into the State. We are 
fighting the spread of crystal meth through the Federal, State 
and local partnership, and we will fight the use of Ecstasy, as 
well. This summer, the Honolulu Police Department created a 
special unit to target Ecstasy. A key component will have task 
force members talking to young people and businesses that host 
raves parties, where Ecstasy may be used, about the dangers of 
the drug. I am pleased to co-sponsor S. 1208, the Ecstasy 
Prevention Act, which will provide much-needed funds for HIDTA 
task forces, including Hawaii, for anti-Ecstasy law enforcement 
activities.
    The bill would also fund a national media campaign, as well 
as medical research into the effects of Ecstasy. Mr. Chairman, 
again I would like to thank you for calling today's hearing on 
Ecstasy. I look forward to our witnesses' testimony on the 
scope of the Ecstasy problem, and I thank them for being with 
us.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Just a random 
sample of Members of the Committee here, from Kentucky to 
Connecticut to Hawaii, each of us testifying from our own 
State's perspective about the appearance of this drug. I think 
this provides evidence of the national scope of the problem. 
Let us now go to our first panel, Dayna Moore and Philip 
McCarthy. Both are residents of Phoenix House Drug 
Rehabilitation Center in Ronkonkoma, New York, and I thank the 
folks at Phoenix House, which is a nationally-recognized 
facility, for enabling the two of you to be here, and most of 
all, again I thank the two of you.
    Dayna, do you want to start? Thanks very much, and please 
now offer the testimony that you have prepared.

TESTIMONY OF DAYNA MOORE,\1\ PHOENIX HOUSE DRUG REHABILITATION 
                             CENTER

    Ms. Moore. Good morning. My name is Dayna Moore, and I 
would like to thank the Committee for giving me the opportunity 
to testify today. I am a resident of a Phoenix House 
residential drug treatment program in Long Island, New York. 
Before coming to Phoenix House 6 months ago, I was 20 pounds 
underweight and I would often go 2 or 3 days without sleep. I 
would not go to school for a month at a time and I had no hope 
for the future. I was going nowhere and I did not care. My life 
was spiraling out of control because I was addicted to Ecstasy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Moore appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    I had not always been a kid in trouble. Until I was 13, I 
was an honor student. I grew up in a nice middle-class town 
with two parents at home. I helped out raising my little 
brother and sister, and 3 days a week I went to dance class, 
ballet, jazz and tap. I was good at them all. I had hoped 
someday to be a dance teacher. I also sang in the school 
chorus. When I was 13, I tried marijuana. I used Ecstasy for 
the first time when I was 14 and it completely changed my life. 
My friends had been doing it for awhile, and they told me it 
was the best experience of their lives. I was scared, but I 
fell in to peer pressure and tried it. I swallowed the pill, 
and \1/2\ hour later I started to feel it. The first words that 
came out of my mouth were, ``This is the greatest feeling ever. 
I have no problems.'' Nothing could bring me down. I had so 
much energy and I loved everyone.
    But when I came down, I fell into a deep, dark hole. It was 
a depression that I could not stand, and I could only get out 
of it by letting time pass or by taking more Ecstasy. From that 
day on, my life began to go downhill. I began using Ecstasy 
every day. I had already been in trouble from smoking marijuana 
and skipping school, but now I found it impossible to get up in 
the mornings and I stopped going to school for days and weeks 
at a time. I was the subject of a PINS petition, meaning I was 
a person in need of supervision. A judge eventually ordered me 
into an outpatient drug treatment program. I went for 7 months, 
but I got high the whole time.
    First, I was able to buy Ecstasy by lying to my mother. I 
would ask for money for movies or for clothes, then I would 
spend it on Ecstasy. When that did not work anymore, I would 
steal money from my parents' wallets. In the beginning, I hid 
my drug use from my parents. After awhile, I did not care 
anymore. What could they do about it anyway? My mother would 
say, ``You have not been eating,'' or ``You have not been 
sleeping,'' and I would just say, ``Yeah, Mom, I was using 
Ecstasy.''
    Sometimes my mother would plead with me, ``You could die 
from this,'' and I would tell her I did not care. I knew this 
was what drugs could do to me, but I just could not stop. The 
addiction I developed for Ecstasy was too strong for me to 
overcome alone. Ecstasy led me to harder drugs like cocaine and 
angel dust. My drug use just got worse and worse, and I kept 
failing drug tests ordered by the courts. When I finally went 
to court with my mother, we both asked the judge for help. I 
knew my family loved me very much and they supported me, but I 
had destroyed their trust in me. I knew it was time to regain 
it. The judge ordered me into a long-term residential treatment 
at Phoenix House.
    Since I have entered treatment, my life has changed 
drastically. Over the past 6 months, I have learned to stop 
living for the next brief high. I have realized that by doing 
drugs I was going absolutely nowhere and I was throwing my life 
away. I have focused again on who I am and on my education, 
something that was always so important to me. I am thankful 
that my relationship with my family is strong again. My family 
is now very proud of me and that makes me happy. To anyone who 
thinks Ecstasy is not a serious drug, I give this advice: Stop 
before you get hurt. I spent years chasing that first magical 
high, and that chase almost killed me. I was once a normal kid, 
and Ecstasy took me down a deadly, destructive path I could 
never have imagined. Life is too precious. Ecstasy is not worth 
it. Thank you.
    Chairman Lieberman. Thank you, Dayna. Your parents have 
every reason to be proud of you and we are grateful to you for 
coming forward today, and I bet a lot of other parents around 
the country are grateful to you, as well. I am going to come 
back and ask you some questions, but let's hear next from 
Philip McCarthy.

      TESTIMONY OF PHILIP McCARTHY,\1\ PHOENIX HOUSE DRUG 
                     REHABILITATION CENTER

    Mr. McCarthy. Good morning. My name is Phil McCarthy and I 
want to thank you for inviting me today. I am a resident of a 
Phoenix House drug treatment program in Long Island, New York. 
I would like to tell you about my life on Ecstasy, a life I am 
not proud of. Three years of my life revolved around Ecstasy, 
getting high and finding the money to get high. At times, I 
robbed houses for television sets and anything else of value. 
The reason? I needed over $300 a week for Ecstasy. I am 17 
years-old and I was a pretty good kid. I grew up in middle-
class neighborhoods in Connecticut and Long Island. I had good 
grades in high school and played junior varsity basketball, 
baseball, and hockey. I liked to draw and I wanted to become an 
architect, but in eighth grade I tried marijuana and I got 
heavily involved.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McCarthy appears in the Appendix 
on page 42.
---------------------------------------------------------------------------
    The next year, I was at a party and a friend showed me a 
few Ecstasy pills. At first, I said no, but I could see 
everyone having fun, so I took a pill. It was amazing. I felt 
like the world was flowing with love and my body felt unreal. I 
felt like I could do anything. I had so much confidence and 
everyone seemed so happy. It was a high I definitely wanted 
again. Pretty soon I was using Ecstasy almost every night. 
Sometimes I would go 2 or 3 nights without sleep and I did not 
eat all day. You could tell that I was living a rough life by 
the bags under my eyes and my low weight.
    After awhile, I started to stay away from home. When I did 
come home, I would not talk to my family. I would not even look 
at anyone. I would just walk straight to my room or walk 
straight out the front door. Getting money to support my 
Ecstasy habit became a problem. At first, I asked my 
grandmother for money for the movies. Pretty soon she stopped 
giving me money, so my friends and I started looking for other 
ways. We offered to sell drugs for kids who gave us their 
money, but we just walked away and gave them nothing in return. 
That worked a few times, but we needed even more money. So we 
started going into the open windows of houses and stealing TVs, 
VCRs and anything else we could sell.
    Some people may say that Ecstasy is not addicting, and it 
may not be physically addicting, but I can tell you I was 
scared to death of breaking into houses, yet I wanted to get 
high so badly I was willing to risk it. And by this time, I 
needed three to five pills a day to get high, and they cost $20 
a pill. It was an expensive habit and it was not always a 
pleasant experience. When I came down from Ecstasy, I felt 
depressed, angry and lonely. I would tell myself over and over, 
``I hate this. I will never do this again.'' But, of course, 
the next day I would get high again. Because of Ecstasy, I 
stole, I associated with criminals, I skipped school and I got 
in trouble with the courts. I was incarcerated six times in 
juvenile detention centers. For 3 years, I was on probation, 
and during that time I got high.
    Finally, the court ordered me into Phoenix House. Over the 
past 3 months in treatment, I have begun to learn about myself. 
I have learned to control my emotions and to think before I 
act. I have learned that I do not need drugs to have fun, to 
have friends, and to live my life. I have also learned to talk 
to my parents and tell them the truth, because the truth--no 
matter what it is--does not hurt as much as a lie. I feel 
remorse for what I have done and the damage I have caused to 
people's property and their lives. Perhaps the first step I can 
take in making it up to people is by telling you today--is by 
telling you what I have learned. Ecstasy is not a fun, 
lighthearted drug. It can ruin lives. It can make you sick. It 
can make you do things you never would have done otherwise. My 
advice to anyone thinking of taking Ecstasy is stay away. 
Ecstasy is bad news. Thank you.
    Chairman Lieberman. Thank you, Philip. That was a very 
strong statement. Let me begin the questioning. One of the 
things that concerns a lot of people about Ecstasy is that we 
hear that it is thought by a lot of young people to not be 
dangerous and not addictive. And I know when I met with people 
in Connecticut, they said that often kids will say to their 
parents, ``I am going to a rave, a big party at a warehouse or 
out in a field, or I am going to a club and there is no alcohol 
served there,'' so as to be reassuring. But then Ecstasy is 
sold there, and, of course, it has all the damaging, painful 
effects that you have described.
    I wonder if both of you could just talk a little bit about 
whether that is what you understood about Ecstasy, that it was 
not dangerous when you first used it, and not in any detail 
about exactly where, but what were the circumstances in which 
you first used it? Was it at a rave? Was it at a club? Dayna, 
do you want to go first?
    Ms. Moore. The first time I used it, a couple of my 
friends, we were just hanging out on the street and they had a 
couple, and I just took them.
    Chairman Lieberman. What did they tell you about it at that 
point?
    Ms. Moore. They did not tell me any of the effects or where 
it came from or whether or not it was dangerous. They just told 
me it could get you high and it will make you have fun and it 
will make you feel good, and for awhile I was seeing people 
taking it, and it looked interesting and I was curious. So I 
tried it.
    Chairman Lieberman. Right.
    Philip, how about you?
    Mr. McCarthy. The first time I used it, I was at a party 
with all my friends.
    Chairman Lieberman. At a house or at a club?
    Mr. McCarthy. At one of my friends' house, because their 
parents were on vacation, and like a lot of my friends were 
older than me and they used the drug like a--times before me. 
So I saw how they were all having fun and how they were acting. 
They were all like happy, talking to each other about anything. 
They did not really care. So I just decided to do it, and like 
Dayna said, none of them really explained the dangers of it and 
the after-effects, either. They just said you had a great time 
on it and you could feel like you could do anything.
    Chairman Lieberman. Were you told at that point that it was 
not dangerous, or were you not?
    Mr. McCarthy. They really did not say anything about it, 
like if it was dangerous or not. They just said if you took it, 
you would have like the greatest time of your life.
    Chairman Lieberman. Maybe we should go back to some basics 
for people who are listening or following this. Did you both 
take it in pill form?
    Mr. McCarthy. Yeah.
    Ms. Moore. Yes.
    Chairman Lieberman. About how much did it cost per pill?
    Mr. McCarthy. Like $20 a pill.
    Chairman Lieberman. Was that about the same, Dayna?
    Ms. Moore. Yes.
    Chairman Lieberman. Both of you have described a situation 
in which, though the word is out that this is not addictive, 
physically addictive, you both became addicted to it. How do 
you explain that, or do you want to describe what the addictive 
feeling was?
    Ms. Moore. It is more of a mental addiction, because the 
first time you do it, it is great, and afterward, after you do 
it for awhile, the high is never the same as the first time, 
and you are chasing--you are always trying to do more pills or 
different kinds to try to get that same first high, and it does 
not happen. And when you come down off the pill, you are back 
to reality again and you are really depressed, and your whole 
body hurts and you want to do that pill again to get back up 
there.
    Chairman Lieberman. Does your body actually hurt, or is it 
more of a mental hurt?
    Ms. Moore. Your whole body just feels like sore, and your 
jaw hurts. You are pale. You feel weak the next day.
    Chairman Lieberman. Philip, how about you?
    Mr. McCarthy. Could you repeat the question real quick?
    Chairman Lieberman. Yes. The question is the word is out 
that Ecstasy is not addictive, even though it can be harmful. 
But both of you describe what sure sounds like an addiction. So 
talk to me a little bit about why it became addictive for you.
    Mr. McCarthy. Well, the first time I did it, like my 
friends were telling me they do not do it every day, it is just 
like a weekend thing. It is like it is not really addictive at 
all. But when I first did it, the first time I did it, after 
that I really could not get enough of it. I wanted to do it 
every day, and if I would have had the money to do it every 
day, I probably would have, and that is pretty much what led me 
to do all the things that I have done, because I wanted to do 
it so bad I would risk anything to do it.
    Chairman Lieberman. Right. So it was a feeling that it had 
taken you up, if you will, and you wanted to keep going back 
there?
    Mr. McCarthy. Yes.
    Chairman Lieberman. When you came down, did you come down 
lower than normal?
    Mr. McCarthy. Yeah. You feel really depressed. You would 
not want to get out of bed in the morning. You really would not 
eat, because you felt--like you did not feel good at all. It 
was just a bad feeling, and that night you would just do it 
again, just to feel normal, I guess.
    Chairman Lieberman. Did you also feel physical symptoms, 
besides the psychological symptoms?
    Mr. McCarthy. Yeah, the same thing Dayna said. Like your 
jaw hurt the next day. Your body felt all worn out. You really 
did not want to do anything.
    Chairman Lieberman. We are going to hear more testimony 
about this in the next panel, but unfortunately there is now a 
record of dramatic increases in emergency room mentions of 
Ecstasy in recent years and, in fact, now there are some deaths 
associated with it. Had you heard, in your own experience, of 
anybody getting really sick on it and having to go to the 
hospital?
    Mr. McCarthy. Yes. A couple of my friends, they used to do 
too much at one time because they did not feel anything, 
because they used to do it a lot. After like a half-hour, they 
would just start throwing up all over the place, like 
violently, too. They would not just be like throwing up 
normally. It was like really disgusting. Again, I do not know. 
That was the only thing I really saw happen.
    Chairman Lieberman. Dayna, how about you?
    Ms. Moore. Not anybody that was really close to me, but I 
have heard about people around where I live that had to get 
rushed to the hospital, or the first time they ever tried it, 
they died. Their heart stopped right then and there. In the 
middle of like me doing it, I knew--I started to hear about the 
damages and the effects of it, but I could not stop. I just had 
to keep doing it.
    Chairman Lieberman. So even though you heard these stories 
and you knew there was danger physically for you, you were 
unable to stop at that time?
    Ms. Moore. No, and that is how I realized that I needed 
help.
    Chairman Lieberman. Did either of you use Ecstasy at any of 
these larger gatherings, like the raves or clubs?
    Mr. McCarthy. I went to clubs a couple of times, like I 
went to a rave once or twice. But I usually just stayed at my 
friend's house or just walked around the streets, hanging out, 
just doing it.
    Chairman Lieberman. How about you, Dayna?
    Ms. Moore. Yeah, me, too. Once in awhile, I would go to a 
club. But it was more like I would just take it on a normal, 
daily basis.
    Chairman Lieberman. Tell me about how you bought it. Is it 
easy to buy?
    Ms. Moore. Yes, it is easy to find anywhere. You can just 
pick up the phone and make one phone call, and somebody could 
be at your house, dropping it off.
    Chairman Lieberman. Were these other kids who were selling 
it?
    Ms. Moore. Yes.
    Chairman Lieberman. They were? People you knew or just 
friends of yours told you to call somebody and they would come 
and sell it to you?
    Ms. Moore. Yes, it was a little bit of both. My friends 
were selling it or they knew people that had it.
    Chairman Lieberman. Right.
    Philip, how about yourself?
    Mr. McCarthy. Pretty much the same thing that she said. 
Like most of my friends would usually get it, like and I would 
just get it from them. Or if nobody could get it, somebody 
would stop by the house that had it, and like we would all just 
buy it off him, like friends and just like my friends' friends, 
stuff like that.
    Chairman Lieberman. Mostly around $20 a pill?
    Mr. McCarthy. Yes.
    Chairman Lieberman. If you were going to--and in a way you 
have done this already in your excellent testimony--but if you 
were going to speak to your contemporaries, to teenagers or 
others, what would you say to them about Ecstasy?
    Mr. McCarthy. I would have to say like they should learn 
more about it before they try it, like some of the long-term 
effects that happen, like you lose your relationship with your 
family, you stop going to school, like what happens to you 
after you come down from it. If they got more educated about 
it, I think more kids would not do it.
    Chairman Lieberman. How about you, Dayna?
    Ms. Moore. Basically, I would just say that back then, when 
I first tried it, I never thought I would be in a treatment 
program because of it. I never thought it would lead me to 
harder drugs. I never thought it would take away everything 
that I had from me, but it does. And it may seem fun in the 
beginning, but it is not. It is definitely not.
    Chairman Lieberman. Would either of you give any advice to 
parents?
    Mr. McCarthy. I would pretty much have to say the same 
thing as the kids, like they should get more educated about it, 
see how your kids look on it and how they act, and like follow 
up on their kids, like see who they are hanging out with, what 
they are doing, make sure they are doing what they tell you 
they are doing. It is like even though I would not have liked 
it--like if my mom did it to me--it is just better for the 
kids, though.
    Chairman Lieberman. Right.
    Dayna, would you give any advice to parents across the 
country who might be listening to you now?
    Ms. Moore. Yes. They need to really research and see the 
effects of it, learn how to tell that your child is on it, be 
more aware of where they are going, who they are hanging out 
with, because if they just looked a little more into it, took a 
little time, it is easy to see what their children are doing.
    Chairman Lieberman. Yes. My time is up. I thank you very 
much. You both are very impressive, and you both are good, 
normal kids. And you went off the track here for a lot of 
different reasons, and the great thing to say is that you are 
obviously back on the track. I remember I had somebody once say 
to me, which is old wisdom, that everybody in life gets knocked 
down at one point or another. The question is whether you get 
up. And the two of you, obviously--thanks to Phoenix House and 
your parents--are getting up. So I admire you and I cannot 
thank you enough for coming forward and telling your stories 
today.
    Senator Bunning.
    Senator Bunning. Thank you.
    Dayna, the first time you used Ecstasy, you were handed a 
pill by one of your friends?
    Ms. Moore. Yes.
    Senator Bunning. You did not purchase it--just, ``Here, you 
want to try something,'' and no explanation of what it did?
    Ms. Moore. No, I was hearing about it for a while, just 
seeing what it did, how everybody was having a good time, 
everybody was laughing, everybody was just having a really good 
time, and they offered it to me. They said, ``Dayna, we have 
some extra pills. Do you want one?'' And I was like, ``Yeah,'' 
and I took one.
    Senator Bunning. And you started with marijuana.
    Ms. Moore. Yes.
    Senator Bunning. The first kind of illegal contact with 
drugs was with marijuana?
    Ms. Moore. Yes.
    Senator Bunning. Because we have heard marijuana is not an 
addictive drug, and we have heard that most people, most young 
people, start with marijuana and it leads to other, more 
serious and addictive drugs. Can you tell me, Philip, how you 
got involved with the law, other than after the fact? In other 
words, there was no law enforcement, as far as Ecstasy is 
concerned, prior to your use, and even though your friends and 
a lot of other people were using it?
    Mr. McCarthy. Well, when I stopped going to school--I 
stopped going to school a little bit. I was not really going a 
lot, and they put me on PINS. And then, after that, I started 
doing Ecstasy, and that is when I got robbery charges, and they 
put me on probation.
    Senator Bunning. But it was only after the fact.
    Mr. McCarthy. Yes.
    Senator Bunning. So there is no prevention until someone 
has used the drug. You did not see any police officers or any 
drug undercover people, prior to your use of the drug?
    Mr. McCarthy. No, I did not.
    Senator Bunning. Both of you were in high school when you 
first started?
    Mr. McCarthy. Yes.
    Senator Bunning. Dayna, were you younger?
    Ms. Moore. I was in junior high.
    Senator Bunning. It is sometimes mind-boggling to think how 
far from your high school you were, or your junior high, you 
were when you were approached. Philip, did you buy your first 
portion or was it given to you?
    Mr. McCarthy. The first time I did it, my friend gave it to 
me, because he wanted to see if I liked it or not, and I did. 
So I just kept on doing it.
    Senator Bunning. Do you have any idea where those people 
were getting that from? In other words, I am trying to look 
past your use, to the people that supplied you the first time.
    Mr. McCarthy. I just usually got it from my friends. I do 
not really know who they got it from. I was not really into it 
like that. I just got it from them.
    Senator Bunning. And once used and once hooked, it got 
progressively higher and more use?
    Mr. McCarthy. Yes.
    Senator Bunning. And progressively lower when you came 
down?
    Ms. Moore. Yes.
    Senator Bunning. It is scary, it really is, to see the 
trafficking coming through an international airport like 
Greater Cincinnati-Northern Kentucky International Airport, and 
the volume has picked up to the point where we had marijuana, 
amphetamines, and now this. And we want to thank you for coming 
in and telling us your story, because if we can get the story 
out about the effects on people of this drug, we can help stop 
it and we can help people with your help, and you have given us 
that help today. And I just want to thank you for being here 
and telling your story, so that the rest of the United States 
and the young people can understand that the net effect is a 
real downer, to the point where your friends and others could 
have died if some of them did not. What we are trying to find 
is a solution, how to stop it from coming here and how to 
convince young people and anyone else who might use it to 
discontinue use because it is so dangerous. Thank you for your 
testimony.
    Ms. Moore. You are welcome.
    Mr. McCarthy. You are welcome.
    Chairman Lieberman. Thanks very much, Senator Bunning.
    Dayna, just one other question. It struck me in your 
testimony--again, it is contrary to what the conventional 
wisdom is here, and Senator Bunning's question about marijuana 
reminded me of it--Ecstasy actually led you to harder drugs, 
didn't it?
    Ms. Moore. Yes.
    Chairman Lieberman. What was going on there? In other 
words, Ecstasy, when you were addicted, became not enough?
    Ms. Moore. Yes, and I was trying--I wanted a drug that 
could have that high, but I did not like the side effects from 
it afterward, feeling sick.
    Chairman Lieberman. From the Ecstasy?
    Ms. Moore. From the Ecstasy, yes. So sometimes when I came 
down from the Ecstasy, I do other drugs to try to numb those 
feelings, the side effects from it, and I was always trying to 
find something bigger and better, but nothing compared.
    Chairman Lieberman. Again, Senator Bunning and I really 
thank you for coming in. You know, you have beaten back 
something, and in all of life's struggles that we all have, we 
can identify with it. We can identify with your parents, and I 
just wish you well and think you are on the road to both being 
the winners that you were just a short while ago. So God bless 
you and thanks for coming in. I wish you the best.
    We are now going to call the second panel: Donald R. 
Vereen, the Deputy Director of the Office of National Drug 
Control Policy; Dr. Alan Leshner, Director of the National 
Institute on Drug Abuse; John Varrone, who is the Assistant 
Commissioner of the U.S. Customs Service; Joseph Keefe, Chief 
of Operations, U.S. Drug Enforcement Administration; John M. 
Bailey, Chief State's Attorney, State of Connecticut; and Roy 
Rutland, Detective, Miami-Dade Police Department. Thank you all 
for being here.
    Dr. Vereen, let's begin with you--Deputy Director of the 
Office of National Drug Control Policy, Executive Office of the 
President. Thank you for your testimony. Let me say before you 
begin, Doctor, that we are going to enter into the record the 
prepared testimony, the very fine prepared testimony that all 
of you have given, so proceed.

  TESTIMONY OF DONALD R. VEREEN, JR.,\1\ M.D., M.P.H., DEPUTY 
  DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY, EXECUTIVE 
                    OFFICE OF THE PRESIDENT

    Dr. Vereen. Thanks. Good morning, Chairman Lieberman, 
Senator Bunning, other distinguished Members of the Committee. 
I would like to thank you for this opportunity to testify today 
about one of the most problematic drugs that has emerged in 
recent years. I would also like to recognize some of our key 
partners in our integrated approach to this problematic drug: 
The Drug Enforcement Administration, the U.S. Customs Service, 
and the State and local law enforcement groups that heroically 
pursue the increasing number of cases brought to their 
attention. I also want to thank our collaborators in the 
Department of Health and Human Services, particularly the 
Substance Abuse and Mental Health Services Administration and 
the National Institute on Drug Abuse, under the leadership of 
Dr. Alan Leshner, one of the world's leading authorities on 
drug abuse. Most especially, a thank you to Dayna and Philip, 
who testified here just a few minutes ago. They are the most 
vulnerable to the grave dangers of MDMA and they are very 
courageous. They represent the primary data that most of us 
prefer to have when we are trying to deal with the drug issue. 
I commend them for what they represent for themselves, their 
peers and their community. And, as you mentioned earlier, I do 
have a longer prepared statement, which I would ask to be 
submitted to the record at this time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Vereen with an attachment appears 
in the Appendix on page 45.
---------------------------------------------------------------------------
    MDMA is one of the most problematic drugs that has emerged 
in recent years. Public health and other research data from our 
Nation's community schools and hospitals indicate increased 
availability and increased use of MDMA among young adults, 
despite the fact that the substance has dangerous effects on 
the users. The misnomer, Ecstasy, which implies a benign 
substance, is one of the most harmful aspects of this 
particular epidemic. MDMA has the fastest accelerating illicit 
drug trend trajectory in the past few years. What is also 
disturbing is its negative health effects are not appreciated 
by the user. MDMA is a public health problem that is behaving 
like an epidemic. Taking cues from past epidemics, including 
drug epidemics, many researchers view a four-phase cycle. There 
is an incubation period, an expansion period, a plateau period, 
and a decline.
    MDMA is now in the expansion phase. I refer you to the 
chart,\1\ ``Monitoring the Future Data of MDMA Use Among 10th 
and 12th Graders,'' and you can see the expansion in use, from 
a relatively flat, low level, to one that is expanding. No 
single solution can effectively address any multifaceted drug 
problem. The Office of National Drug Control Policy, as a part 
of its national drug control strategy, insists on a 
comprehensive response to all emerging drug epidemics, MDMA in 
particular. ONDCP is uniquely positioned to integrate public 
health, public safety and public policy perspectives in the 
face of the spread of a synthetic drug, such as MDMA, and ONDCP 
bases sound drug policy on scientific research, consistent with 
the goals of that strategy.
---------------------------------------------------------------------------
    \1\ Chart referred to appears in the Appendix on page 52.
---------------------------------------------------------------------------
    From a public health perspective, demand reduction efforts 
inform--the public about the dangers of MDMA use. Second, the 
demand reduction efforts assemble epidemiological data. And, 
third, demand reduction efforts support the collaboration of 
our Federal partners to improve drug testing and screening 
methods for MDMA. From a public safety perspective, supply 
reduction and law enforcement efforts continue to, one, 
emphasize precursor chemical control and, two, identify and 
prosecute drug-trafficking organizations.
    Investigations are ongoing to identify vulnerable areas in 
the production and distribution network, including the 
production labs, organized crime, and methods for 
transshipment. From a public policy perspective, ONDCP has led 
coordinating roles among 50-plus Federal agencies that have 
illicit drug use as part of their mandate. The following steps 
to address MDMA problems are in place and are ongoing. The 
first is ONDCP has convened a Federal interagency demand 
reduction working group subcommittee to address MDMA 
specifically. This group consists of representatives from 
several agencies. Through the information gathering and 
exchange that has occurred during the meetings, the 
subcommittee has identified the need for a screening tool and 
the development of cost-effective testing systems, which are 
under development.
    Second, in August 2000, the National Youth Anti-Drug Media 
Campaign launched a nationwide radio and Internet, as well as 
television, initiative focused specifically on MDMA. The 
initiative is designed to educate young people and their 
parents about the drug's dangers and change the widespread 
misperceptions that it is harmless. There is a video that we 
have that gives an example of one of the ads that was developed 
specifically for this initiative. I draw your attention to this 
print poster, that has been reproduced in various vehicles, to 
get information out to young people and their parents. Here is 
an example of one of the ads that was developed in this 
campaign.
    [A videotape was shown in the hearing room.]
    Chairman Lieberman. How widely are these playing now? Do 
you know?
    Dr. Vereen. They are all over the country. We develop 
different parts of the campaign to hit young people and their 
parents in waves. So we have got one wave out, and what we have 
in production--I misspoke; I am a little bit ahead of myself--
are in new wave of--I do not want to call them exactly ads, but 
information out to parents and young people.
    Chairman Lieberman. Good.
    Dr. Vereen. Third, ONDCP's High-Intensity Drug-Trafficking 
Area program, known as HIDTA, is a strategy-driven drug 
enforcement effort. The HIDTA program facilitates coordination 
and leveraging of resources of over 900 local, 172 State, 35 
Federal law enforcement agency resources, including 86 other 
participating organizations. Each of the HIDTAs is conducting a 
threat assessment of MDMA that will be included in their future 
work.
    Fourth, in partnership with the National Guard Bureau, the 
Center for Substance Abuse Prevention, Community Anti-Drug 
Coalitions of America, CADCA, and the National Institute on 
Drug Abuse, ONDCP is participating in a four-part series of 
satellite broadcasts on specific drugs of abuse. A 90-minute 
broadcast on MDMA was held on May 24 of this year that set a 
record for attendance size and reached over 800 sites in 50 
States and five in the District of Columbia and one in Canada.
    Last, in March of this year, Ecstasy was the featured 
special topic in the latest edition of Pulse Check, which is an 
on-the-ground instrument that ONDCP uses to detect new and 
emerging drug trends. I commend the Committee on its effort to 
protect the American people from this dangerous drug, and thank 
you for this opportunity to speak about the facts and how they 
have been applied in overall U.S. Government policy.
    Chairman Lieberman. Thanks, Doctor. Just very briefly, did 
you say at the outset that Ecstasy use is the fastest-growing, 
that is percentage-wise, of any drug in the country now?
    Dr. Vereen. Well, the perceived availability of the drug, 
that is the young people who are taking it perceive that it is 
so available, that is the indicator that we are using that says 
it is growing at a very fast rate. And, as you can appreciate, 
when we gather this data, there is always a lag time, and 
almost always the numbers are an underestimate of what is 
actually going on out there.
    Chairman Lieberman. Thank you. Next is Dr. Alan Leshner, an 
authority in this area, Director of the National Institute on 
Drug Abuse. Thanks for being here.

  TESTIMONY OF ALAN I. LESHNER,\1\ Ph.D., DIRECTOR, NATIONAL 
     INSTITUTE ON DRUG ABUSE, NATIONAL INSTITUTES OF HEALTH

    Dr. Leshner. Thank you, Senator. I am delighted to be here. 
I am also delighted to have this opportunity to talk with you 
about what science has been teaching us about 3,4 
methylenedioxymethamphetamine--known popularly as MDMA, or 
Ecstasy. In fact, a little bit over a week ago, my institute 
held a major 2-day scientific conference on Ecstasy, where we 
brought to the NIH leading researchers from all over the world. 
Having sat through the 2-day conference, I can provide you 
today with the scientific community's very latest thinking 
about this drug.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Leshner with an attachment 
appears in the Appendix on page 53.
---------------------------------------------------------------------------
    Not surprisingly, one overarching theme is MDMA is far from 
being the harmless fun drug you hear about from many young 
people and in the popular press. The fact is that we have known 
for over a decade from animal studies that Ecstasy can be 
extremely dangerous, even when used only once, and repeated use 
over time damages critical brain cells in ways that can have 
long-lasting effects on behavior. Importantly, over the last 5 
years, virtually every major finding from those animal studies 
has been confirmed in humans.
    As you know, MDMA is a synthetic drug that is typically 
sold in capsule or tablet form, and we have heard quite a bit 
about that today. Ecstasy has both stimulant and hallucinogenic 
properties. Although it does not cause full-blown 
hallucinations like LSD, users do report distorted time and 
perception while under its influence. As an extremely powerful 
stimulant, MDMA can increase heart rate and blood pressure and 
it can disable the body's ability to regulate its own 
temperature. When it is used in club or dance settings, it can 
lead to very severe rises in body temperature, what we call 
hyperthermia; it can lead to dehydration, hypertension, and 
even heart, or kidney failure in particularly susceptible 
people.
    Like other stimulants, Ecstasy also appears to have the 
ability to cause addiction. The brain mechanisms by which 
Ecstasy works are actually critical to understanding its short- 
and long-term effects. Ecstasy increases the activity levels of 
at least three major brain chemical systems, the 
neurotransmitters serotonin, dopamine and norepinephrine. It is 
what Ecstasy does to serotonin levels that concerns us the most 
right now. Serotonin normally plays a critical role in everyday 
functioning. It is significantly involved in the regulation of 
mood, memory, sleep, pain, emotion and appetite. When people 
take Ecstasy, the drug increases the release of serotonin, 
thereby producing its mood effects, but it also interferes with 
the buildup of new serotonin pools, so that over time Ecstasy 
use causes the brain to actually become significantly depleted 
of serotonin, and then it can take the brain weeks to rebuild 
its serotonin levels to normal.
    Recent studies are showing that it is not just those people 
who use Ecstasy chronically or repeatedly that are affected. 
Again, from animal models, we have known for awhile that even 
one dose of MDMA can decrease serotonin levels for up to 2 
weeks. We now know this to be true in humans, as well, and I 
have brought you one example over here, which is a series of 
PET scans. On your left is an MRI scan, and then the middle 
scan shows you the brain of a former Ecstasy user who has been 
abstinent for awhile, and these are occasional users, not heavy 
users. It is important that this is relatively small amounts of 
Ecstasy use. You then see the response of the brain, to the 
right, of tremendously reduced overall brain activity, and I 
can explain that in detail to you later, if you would like.
    But it is showing you, in effect, from a single dosing of 
Ecstasy, 2 weeks after the individual last used Ecstasy. So 
what you are seeing is a brain change in a relatively moderate 
Ecstasy user, what would be called an occasional user, from a 
single-dosing regimen that is lasting 2 weeks after the 
individual stopped using----
    Chairman Lieberman. Doctor, would you say that would be 
typical, or might that person have had some special 
vulnerability?
    Dr. Leshner. Actually, this is the 2-week version. There is 
also a 10-week version that I did not bring you. It is not 
quite as dramatic. It is not dependent upon the particular 
vulnerability. It is a mechanism by which Ecstasy produces both 
its short-term and its long-term effects.
    Chairman Lieberman. Right.
    Dr. Leshner. Again, the areas that you see affected are 
obviously critically involved in all of those behaviors that I 
mentioned to you. Despite our best efforts at sharing what we 
know about these drugs, all indicators suggests that MDMA is 
gaining popularity among students and young adults who continue 
to use Ecstasy in increasingly higher doses, and actually, now, 
outside the more traditional nightclub array of settings. The 
fact that one in nine high school seniors and over 150,000 
eighth graders, that is, 13- and 14-year-olds, have tried 
Ecstasy in their lifetime is truly a national public health 
crisis.
    The one encouraging point in this grim scenario is the 
amazing ability of the brain to compensate and adapt to life 
stressors. Emerging research on other drugs, like meth-
amphetamine, a drug structurally similar to MDMA, is showing 
that there are signs that if one stops using it, the brain can 
recover over time. To summarize, the scientific evidence is 
clear. Ecstasy is not a benign drug. It is an extremely 
dangerous substance, both in the short- and in the long-term. 
As a scientist, and as a public health official, I believe it 
is tremendously important that we get this science-based 
message out to the public. We do not need any more people, 
particularly our young people, our greatest resource, 
experimenting on their own brains with this extremely dangerous 
drug.
    Thank you, sir.
    Chairman Lieberman. Thank you, doctor, for that compelling 
and chilling testimony.
    John C. Varrone is the Assistant Commissioner, Office of 
Investigations, U.S. Customs Service. I appreciate your 
willingness to come by. I gather Mr. Winwood had some 
difficulty making it here today, but we are delighted to have 
you here and look forward to your testimony now.

  TESTIMONY OF JOHN C. VARRONE,\1\ ASSISTANT COMMISSIONER OF 
    CUSTOMS, OFFICE OF INVESTIGATIONS, U.S. CUSTOMS SERVICE

    Mr. Varrone. Thank you. Chairman Lieberman, Senator 
Bunning, thank you very much for the opportunity to appear 
before you today on behalf of the U.S. Customs Service and our 
efforts to enforce the smuggling of Ecstasy. The U.S. Customs 
Service has vigorously increased their efforts against MDMA, 
otherwise known as Ecstasy, entering into the United States 
since the drug first began appearing at our borders in 
substantial quantities in the late 1990's. Almost negligible 5 
years ago, Customs seizures of MDMA has since skyrocketed. 
Total quantities of MDMA seized by the Customs Service have 
jumped from approximately 400,000 tablets in 1997 to 3\1/2\ 
million tablets in 1999, to well over 9 million tablets in 
fiscal year 2000. With 3 months remaining in our current fiscal 
year, we have seized approximately 6 million tablets.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Varrone with an attachment 
appears in the Appendix on page 63.
---------------------------------------------------------------------------
    As you know MDMA is extremely profitable to drug 
traffickers. Clearly, that is one of the reasons why we are 
seeing so much more of it. A pill that costs pennies to make in 
Europe can retail from anywhere from $25 to $50 here in the 
United States. To give you an example, this bag of Ecstasy 
which I am holding, was part of a seizure that Customs 
inspectors made at Dulles International Airport. This bag is 
approximately five pounds and it is valued at $140,000.
    Chairman Lieberman. How was it brought in? Do you know?
    Mr. Varrone. It was smuggled in luggage by two individuals, 
sir.
    It would be logical to assume that with more MDMA coming 
into the country, overall seizures would rise, but that simple 
explanation does not do justice to the combined efforts of law 
enforcement to disrupt the MDMA trade. Many of our largest 
seizures of MDMA to date have been the result of better 
targeting and shared intelligence between Customs, the Drug 
Enforcement Administration, the FBI, State and local 
authorities. In my long statement, I elaborate on some of the 
key enforcement measures Customs has put into place to 
complement this exemplary interagency cooperation.
    These include the creation of a special Customs Ecstasy 
Task Force here in Washington, DC; the training and deployment 
of 260 canine enforcement teams for detection purposes; and, 
the involvement of the Customs Cyber-Smuggling Center in the 
investigation of websites marketing MDMA and other club drugs. 
The enhancement of our communications with law enforcement in 
Europe and Israel, in conjunction with DEA, has also 
contributed to some of these successes.
    The majority of MDMA seized by Customs arrives by 
commercial air. In addition to focusing on the traditional 
source countries for narcotics, we are playing close attention 
to former non-source countries, especially flights from known 
MDMA hubs, such as Amsterdam, Paris, and Frankfurt. Yet, when 
pressured on one route, the traffickers is quickly turning to 
others. The Dominican Republic, Curacao, and Surinam all 
emerged last year as popular MDMA transshipment points. We are 
also seeing increased activity from Canada, and this year we 
have almost doubled our amount of seizures from Spain.
    Several recent MDMA seizures along our southwest land 
border suggest that smugglers may be probing other flanks. It 
may only be a matter of time before the powerful drug cartels 
and the trafficking groups operating to our south stake their 
claim in the lucrative MDMA trade, as well. We are also very 
concerned with the increasing signs of domestic production. 
Customs has made several seizures of key precursor chemicals 
used in the manufacture of MDMA. One of those seizures, which 
occurred at our international mail facility in Oakland, 
California, led to the discovery and closure of a fully-
equipped MDMA laboratory outside Los Angeles.
    From a detection standpoint, MDMA's compact size and shape 
make concealment options almost infinite. Customs has seized 
MDMA in packages and shipments of all shapes and sizes, from 
suitcases to cargo containers to aircraft engines to baby 
formula to stuffed animals. A great deal of MDMA is smuggled by 
couriers who conceal it somewhere on their body. Of late, we 
have noted a rising trend in the use of spandex bicycle shorts 
worn under clothing by smugglers. These shorts are altered to 
contain extra pockets, which can hold hundreds of pills. We 
have also encountered an increasing number of MDMA swallowers, 
who ingest the drug in small packages or balloons in order to 
evade Customs. We are shoring up our defenses against MDMA 
because we simply do not see this trend declining any time 
soon. Clearly, what was once ad hoc smuggling by small-time 
dealers and users has mushroomed into organized trafficking by 
criminals. They now have the money and the infrastructure to 
market MDMA well beyond the club scenes in New York, Miami, and 
Los Angeles. The motive of the club owners who help the 
traffickers push MDMA is obvious. They are in it for the money. 
So it is not surprising that we have seen them come under the 
spell of organized crime.
    But the traffickers are also aided by another, more 
unlikely source. These include social scientists and others in 
the so-called harm reduction movement, who claim that the real 
damage is caused, not by MDMA and its pushers, but by the laws 
designed to curtail them. This line of argument has given rise 
to the myth that American law enforcement is out to criminalize 
the experimental behavior of a whole generation of young 
Americans. To the contrary, our responsibility is to enforce 
the drug laws of this country and arrest and prosecute those 
who, without hesitation, routinely exploit our children and 
place them at serious risk.
    Certainly the efforts of this Committee to raise awareness 
of the MDMA threat will help to drive this message home. 
Education and outreach to parents and children are also vital, 
as Customs, the DEA, and others are doing via information 
posted on our website. Customs uses this type of outreach as a 
critical aspect of our enforcement mission, and we are 
examining ways to expand our regular contacts with schools, 
community groups and others to include a greater focus on MDMA 
use and trends. The fact remains that no matter how successful 
our enforcement efforts, our best defense is less demand.
    Thank you for this opportunity, Mr. Chairman. I will be 
happy to answer any questions at the conclusion.
    Chairman Lieberman. Thanks, Mr. Varrone, for that excellent 
testimony. One quick question, though. You mentioned the 
current diversification of the points of origin of the flights 
or shipments coming in. Am I correct that the major 
manufacturing locations are still in the Netherlands and 
Belgium?
    Mr. Varrone. Yes, sir.
    Chairman Lieberman. Mr. Keefe from DEA, Chief of 
Operations, thank you for being here. I look forward to your 
testimony now.

  TESTIMONY OF JOSEPH D. KEEFE,\1\ CHIEF OF OPERATIONS, DRUG 
     ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Keefe. Thank you, sir. Chairman Lieberman and Senator 
Bunning, I am pleased to have the opportunity to appear before 
you today for the purpose of discussing the outstanding 
coordination between Federal, State and local law enforcement 
in combating MDMA, the dangerous club drug deceptively referred 
to as Ecstasy. As always, I would first like to preface my 
remarks by thanking the Committee for its unwavering support of 
the Drug Enforcement Administration and overall support of drug 
law enforcement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Keefe appears in the Appendix on 
page 70.
---------------------------------------------------------------------------
    MDMA is manufactured clandestinely in Western Europe, 
primarily the Netherlands and Belgium, which produce the vast 
majority of the MDMA consumed worldwide. A typical clandestine 
laboratory is capable of producing 20 to 30 kilograms of MDMA 
per day, with one kilogram of MDMA consisting of approximate 
4,000 tablets. Dutch police reported the seizure of one 
laboratory capable of producing approximately 100 kilograms of 
MDMA per day. Most often, MDMA consumed in the United States is 
manufactured by Dutch chemists and transported or distributed 
by various factions of Israeli and Russian organized crime 
groups. These groups recruit and utilize American, Israeli, and 
Western European nationals as couriers.
    In addition to the use of couriers, these organizations 
exploit the mail, private carriers, and airline freight to 
facilitate delivery of their merchandise. The drug trafficking 
organizations involved in MDMA distribution are brought 
together by the enormous profit realized in these ventures, 
which has led to the professionalization of MDMA trafficking. 
Once the MDMA reaches the United States, a domestic sale 
distributor will charge $6 to $8 per tablet. The MDMA retailer 
will, in turn, distribute the MDMA for $25 to $45 per tablet. 
MDMA traffickers utilized all major airports in Europe as 
transshipment points for MDMA destined for the United States. 
Los Angeles, New York and Miami are currently the major gateway 
cities for the influx of MDMA from abroad. These three cities 
reflect the greatest number of arrests and seizures of MDMA 
within our borders.
    The largest MDMA seizure in the United States occurred in 
Los Angeles, California, where DEA and U.S. Customs seized over 
2.1 million tablets of the drug. Currently, Israeli and Russian 
MDMA trafficking organizations dominate the MDMA trade in the 
United States. As Ecstasy proves more profitable and as law 
enforcement pressures force the traffickers to regroup, the 
U.S. MDMA trade will become increasingly diverse, incorporating 
drug trafficking organizations based in the Caribbean and Asia. 
Dominican violators, in particular, have exploited their well-
organized trafficking infrastructure in the Caribbean to 
capitalize on links to MDMA sources in the Netherlands.
    DEA has completed a number of significant investigations 
that have dismantled global MDMA trafficking organizations, as 
well as limited the effectiveness of rave parties as a venue 
for distributing MDMA. None of these successful cases could 
have been brought to fruition without a consistent line of open 
communication between Federal, State and local law enforcement 
agencies. Through a multitude of task forces, and joint 
investigative ventures, DEA seeks to maximize the impact of its 
enforcement initiatives in communities throughout the United 
States. DEA's joint investigations have incorporated innovative 
strategies, such as the Federal Crack House Statute and 
utilization of municipal health codes and nuisance abatement 
ordinances to neutralize rave events that facilitate the 
trafficking of MDMA.
    The May 18, 2001 arrest of well-documented Israeli MDMA 
violator Odet Tuito is an excellent example of interagency and 
international cooperation. Through the coordination of DEA's 
Special Operation Division, police authorities in Barcelona, 
Spain arrested Odet Tuito pursuant to a provisional arrest 
warrant. As a result of this cooperation, Tuito, who was 
perhaps the premier Israeli MDMA trafficker operating between 
Europe and the United States, will face charges pending in New 
York and Pennsylvania. Last year, to focus national attention 
on the MDMA threat, DEA hosted the International Conference on 
Ecstasy and Club Drugs in partnership with approximately 300 
officials from domestic and foreign law enforcement, judicial, 
chemical, prevention, and treatment communities. As a follow-up 
to last year's conference, DEA is in the process of 
implementing a series of regional club drug conferences, which 
will serve the purpose of taking DEA's demand reduction message 
out to a variety of selected communities.
    A regional conference was recently held in Atlantic City, 
and future regional conferences are scheduled to be held in 
Chicago and San Diego. In closing, I would like to reiterate 
that DEA's investigative strategy makes maximum use of the 
tremendous assets and experience offered by our Federal, State, 
local and foreign police counterparts. These efforts, when 
combined with DEA's training and club drug conferences, provide 
the foundation for an integrated community-based approach that 
serves to aggressively confront the threat posed by MDMA-
trafficking organizations.
    I thank you for providing me the opportunity to address the 
Committee and I look forward to taking any questions you may 
have on this important issue.
    Chairman Lieberman. Thanks very much, Mr. Keefe, and now we 
move to the State and local level, I am proud to say, with my 
own Chief State's Attorney and longtime friend, former co-
worker, John M. Bailey, who has overseen a very aggressive and, 
I would say, creative response to the threat of Ecstasy in the 
State of Connecticut. I am proud to welcome him.

 TESTIMONY OF JOHN M. BAILEY,\1\ CHIEF STATE'S ATTORNEY, STATE 
                         OF CONNECTICUT

    Mr. Bailey. Good morning, Senator Lieberman and Senator 
Bunning. For the record, I am John M. Bailey, the Chief State's 
Attorney for the State of Connecticut. To explain my 
responsibilities, I am the chief law enforcement officer of the 
State of Connecticut and the administrative head of the 
Division of Criminal Justice, which is responsible for the 
investigation and prosecution of all criminal matters in the 
State of Connecticut. I sincerely thank the Committee for the 
opportunity to appear before you to discuss the drug Ecstasy 
and how we in Connecticut have utilized our nuisance abatement 
program to correct one serious problem area involving Ecstasy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bailey appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    I am sure the Committee Members are aware of the growing 
problem that we in law enforcement and in our society in 
general are facing with the drug Ecstasy and so-called designer 
drugs or club drugs. Let me quote from USA Today of July 20 of 
this year. ``The trade in the use of Ecstasy has mushroomed 
since 1995. In that year, Federal agencies confiscated a few 
hundred thousand pills. Last year, Federal agencies confiscated 
more than 11 million pills coming into the country.'' I should 
add those 11 million represent, I think, less than eight 
percent coming into the United States.
    On July 19 of this year, the New York Times reported on the 
seizure of one million Ecstasy tablets from one studio 
apartment in New York City. At the price of $20 to $40 for each 
tablet, this seizure alone took $30 million worth of Ecstasy 
off the streets and out of the rave clubs. Similar seizures are 
being reported elsewhere and they are not limited to big cities 
such as New York--and the drug Ecstasy. On July 20 of this 
year, the Wichita Eagle newspaper in Kansas carried a report on 
the seizure of 21,000 vials of the narcotic catamine, or what 
is known in the drug trade as Special K. This was the biggest 
seizure ever of Special K in the country, and that was in 
Wichita, Kansas.
    The problem is not limited to one drug and certainly not to 
one city or part of the country. It makes no difference whether 
we are talking about our American cities or the American 
heartland. When the drug traffickers go looking for a market, 
they will sell wherever and to whomever will buy. In 
Connecticut, for example, we have found that Ecstasy is more 
popular among suburban users than other drugs such as heroin or 
cocaine. But more importantly, our statewide narcotics task 
force, who you met with, Senator, they are warning us that the 
designer drugs and Ecstasy could replace marijuana as the drug 
of choice among young people. And these are the economics of 
the drug trade: Introduce new drugs; and create a new market. 
Remember, although this is an illicit business, it is a 
business, and a business that is generating billions of dollars 
each year in income. The drug traffickers know what they are 
doing, which is why it is so absolutely critical that we in law 
enforcement know what we are doing.
    Just as they work to develop new markets and push new 
poisons, we must develop new ways and new initiatives to stop 
the dealing in death. One of the ways that we were successful 
in Connecticut is our nuisance abatement program. I would like 
to use the remaining part of my time to explain this program 
and how it is used to correct a problem that deals precisely 
with Ecstasy trafficking. We in Connecticut are very proud of 
our nuisance abatement program. It is one of the most exciting 
and innovative initiatives that we have undertaken in recent 
years. The program joins together legal forces of civil action 
and criminal prosecution to deal with nuisance properties.
    I have submitted detailed written material to the Committee 
explaining specifically how the program works. Simply put, when 
we can show a pattern of criminal activities through actual 
arrest or issuance of arrest warrants, we can take a civil 
action to clean up the problem. The Ecstasy problem in Hartford 
is an excellent case in point as to how this law can be 
utilized. A traditional narcotics investigation was undertaken. 
We identified three rave clubs in Hartford were Ecstasy 
trafficking was taking place. It should be noted that people 
from New York, Providence, and Boston came to Hartford to go to 
these clubs. And I should also note that one young man going 
back to Boston died 6 hours later, leaving the club.
    One of these clubs was a traditional liquor establishment, 
but the other two were after-hours clubs, catering to 
individuals as young as 14-year-olds. The clubs opened up at 10 
o'clock at night and closed at 7 in the morning. We proceeded 
with a criminal investigation and arrest, and, at the same 
time, with the civil action allowed under the Nuisance 
Abatement Act, we obtained court orders shutting down all three 
clubs. The clubs remained closed while the owners worked with 
us to put in place strict controls to stop the drug dealings.
    I would just briefly mention the conditions which we placed 
on the clubs to reopen: One, no employee could have a criminal 
record in anything to do with drugs; two, uniformed police 
officers had to be on the premises when these clubs opened. No 
one under 18 could go into the club, and we also changed the 
hours of the clubs. We did pat-downs when people went into the 
clubs to make sure they did not have any drugs on them. We put 
four video recorders, showing the entire square footage of the 
clubs, and we could inspect those clubs at any time and look at 
the video, and we prohibited the sale of surgical masks, Vicks 
inhalers, pacifiers, or any drug paraphernalia. And, finally, 
we could go in there without a search warrant and inspect the 
club at any time.
    The clubs have since reopened and we are continuing ongoing 
monitoring to ensure compliance. Nuisance abatement differs 
from traditional activities in that the goal is not to 
permanently close a business or property, but to clean up that 
property. We work with the property owners or the business 
operators to make that property a productive part of the 
community, and we do so with a clear understanding that if the 
problem returns, so will we, armed with the full authority of 
civil and criminal prosecution. The nuisance abatement program 
has shown its value in a relatively short period of time in 
Connecticut, and we believe the program holds a tremendous 
promise for the future. We also believe this is a model, not 
only for the communities in Connecticut, but for jurisdictions 
throughout this country that may not even know of its 
existence.
    Coming down here this morning, I picked up--and, Senator 
Lieberman, you are familiar with The Advocate.
    Chairman Lieberman. Yes, I am; for the record, it is a 
Connecticut newspaper.
    Mr. Bailey. And we picked it up at the airport. It states, 
``Raves On and Off: Hartford Rave Scene Has Not Recovered from 
John Bailey's Drug Crackdown.'' Right now, they are about to go 
out of business.
    Thank you, Senator.
    Chairman Lieberman. Thank you. Thanks for what you are 
doing and thanks for presenting an excellent model, which may 
be adapted in other jurisdictions around the country.
    Finally, we have Detective Roy Rutland, who is with the 
Miami-Dade Police Department. As I indicated earlier, Mr. 
Rutland is behind a screen at his request, because many of the 
people with whom he works are unaware of his true identity. We 
are pleased to have him here and pleased to give him this 
opportunity to testify. Go right ahead now, Detective Rutland.

   TESTIMONY OF ROY RUTLAND,\1\ DETECTIVE, NARCOTICS BUREAU, 
                  MIAMI-DADE POLICE DEPARTMENT

    Mr. Rutland. Mr. Chairman, it is an honor to be here before 
you and the distinguished Members of the Committee. I would 
also like to thank your staff, members of the ONDCP, and the 
Governmental Affairs staff for their exceptional support prior 
to this meeting. I am employed by the Miami-Dade Police 
Department. The Miami-Dade Police Department Narcotics Bureau 
is responsible for investigating any narcotics-related offenses 
occurring in the unincorporated areas of Miami-Dade County, 
Florida. My responsibility as an undercover narcotics detective 
is twofold: First, my job is to effectively target and 
infiltrate organizations responsible for the manufacture and 
distribution of any illegal narcotics. The goal is to disrupt 
and eliminate these organizations at their core foundation, 
including source nations. Second, my job is to testify in the 
judicial process and pursue the proper judicial measures 
necessary for the prosecution and incarceration of these 
narcotics and organized criminal offenders.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rutland appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    Mr. Chairman, during the mid-1990's, south Florida first 
began to experience what many in law enforcement and in the 
health community now consider to be a global epidemic. The 
introduction or reappearance of this deadly drug, MDMA, has 
surfaced in all types of venues. The arrival of MDMA comes as 
no surprise to those of us who are investigators and who have 
targeted and investigated other deadly narcotics that have 
entered south Florida and the United States. The surprise, 
however, comes in dealing with the volume of this drug being 
smuggled into the country and the unfortunate global popularity 
associated with the drug.
    I first began investigating MDMA when I infiltrated the 
subculture that frequented venues, which are now commonly 
referred to as rave parties. A vast majority of these parties 
consistently disguised and continue to disguise their 
appearance for the sole purpose of profit through club-drug 
distribution, primarily MDMA. I know, because I was there. The 
effective marketing techniques and astronomical profit margins 
I have witnessed contrasts with any other drug being 
distributed today. Make no mistake about it, the unfortunate 
popularity of MDMA has caused this deadly drug to move from the 
rave scene to mainstream America. This is evident in multiple 
cases that I have investigated in south Florida, nationally and 
internationally.
    The disturbing reality of MDMA was clear in the year 2000, 
when Miami-Dade County experienced the first apprehension of a 
drug mule who had swallowed multiple pellets containing more 
than 1,000 MDMA tablets and attempted to enter Miami-Dade 
County from the Netherlands, via Miami-Dade International 
Airport. To date, the Miami-Dade Police Department, along with 
the U.S. Customs Service, has apprehended two additional drug 
mules attempting to enter the United States from various source 
nations. Each of these mules had swallowed more than 2,000 MDMA 
tablets each.
    It is important to note, however, that these numbers pale 
in comparison to the multiple drug mules that we have 
apprehended in south Florida who have used alternate body-
packing techniques. Since the explosion of this epidemic in 
south Florida, my focus has been on investigating MDMA cases, 
including educating law enforcement nationally and 
internationally. During the infant stages of the epidemic, I 
was primarily negotiating and dealing with younger 
narcotraffickers with little experience in the narcotics trade. 
During the last year, I have seen a rapid transformation in 
power.
    As many of us in law enforcement anticipated, the 
traditional narcotraffickers and their source nations have 
assumed much of the network control over MDMA, thus causing 
multiple power struggles with organizations and new source 
nations. As a result of these power struggles, along with the 
astronomical profit margins, we on the front lines are 
experiencing the associated violence. Through aggressive 
investigations and successful infiltrations, I, along with many 
other undercover narcotics detectives, have successfully 
disrupted and eliminated multiple MDMA organizations 
responsible for the manufacturing and distribution of MDMA. 
None of this would be possible without a global cooperative 
effort in law enforcement.
    I am pleased to say that we are coordinating and working 
effectively with other local law enforcement, along with law 
enforcement at the State and Federal levels, to combat this 
epidemic. Case in point: Early in July, members of the Miami-
Dade Police Department's Narcotics Bureau initiated an 
investigation involving several foreign nationals involved in 
large-scale MDMA distribution from Miami-Dade County to New 
York City. As a result of a successful cooperative effort 
between two separate local law enforcement agencies, the 
investigation that was initiated by the Miami-Dade Police 
Department's Narcotics Bureau concluded in Manhattan, by the 
New York Police Department Queens Narcotics Unit. The 
investigation yielded the seizure of 450 pounds of MDMA, or 
approximately 1.6 million MDMA tablets, $187,000 in U.S. 
currency, and the apprehension of two foreign nationals 
responsible for the distribution of 100,000 MDMA tablets every 
2 weeks for the last 5 years in the United States.
    In closing, undercover narcotics detectives on the front 
lines will continue to aggressively combat this global 
epidemic. With continued support from the government and 
effective legislation, such as the Federal crack house law, I 
am confident we will have a direct and substantial impact on 
MDMA. Thank you.
    Chairman Lieberman. Thanks very much, Detective Rutland, 
for your testimony and, of course, for what you are doing every 
day that you go to work. Let me begin with a little bit of 
history, and maybe, Dr. Leshner, you are the best one to ask. 
Ecstasy just did not appear out of nowhere 4 or 5 years ago. 
Give us a little bit of history about MDMA. Am I correct that 
it was officially declared a controlled substance in 1985?
    Dr. Leshner. I believe that is right. It originally was 
thought to be a benign substance. There are people who have 
claimed all kinds of psychotherapeutic potential uses of it 
over the years. It is important to note that there has never 
been a controlled clinical trial demonstrating the usefulness 
of MDMA for any clinical purpose at all, and I think that it is 
important to correct the common misconception out there.
    Chairman Lieberman. Do you have any idea when it first 
appeared in the U.S.?
    Dr. Leshner. I do not recall the exact details.
    Chairman Lieberman. Do any of the witnesses?
    Dr. Vereen. Perhaps as early as the turn-of-the-century it 
was created, but its therapeutic use in psychotherapy was in 
the 1970's and 1980's.
    Chairman Lieberman. In the 1970's and 1980's, its use was 
allegedly for therapeutic reasons, not for recreational uses?
    Dr. Vereen. That is correct.
    Chairman Lieberman. But, as you said, Dr. Leshner, there is 
no documented research here that proves its therapeutic value?
    Dr. Leshner. That is correct. There has never been a 
controlled clinical trial. And in contrast to what you hear 
publicly, we at NIH have never received a proposal to study it 
for any clinical indications, which I think is an interesting 
commentary on the biomedical communities belief about this 
substance.
    Chairman Lieberman. So let me ask the whole panel or 
anybody who wants to answer, how does a drug like this, which 
remains at relatively low usage in the country, suddenly become 
an epidemic? This took place in 4 or 5 years. Was a decision 
made somewhere by drug cartels or others to begin to try to 
develop a market, Mr. Keefe?
    Mr. Keefe. If I could, sir. It has always been very popular 
in Western Europe. As we know now, most of the clandestine labs 
are located there and they have been for some time.
    Chairman Lieberman. So the recreational use has been common 
in Western Europe for some period of time?
    Mr. Keefe. Yes, sir. The rave parties sort of brought it 
through to the United States with the tech music, and that is 
where we see the venue now for MDMA. But I think what has also 
happened is the children and the young people that spoke here 
earlier thought that there was no problem with it, until the 
doctor pointed out, that was not harmful. So we see these young 
people and the harm-reduction, as Mr. Varrone said, advocates 
saying there is no problem with this drug--became 
professionalized by the organized crime members we referred to 
who saw this and were able to make money. People were willing 
to spend money for it and to use it because they felt there was 
no harm. We had the rave clubs bringing it and then it started 
getting into the neighborhoods and it continues, sir.
    Chairman Lieberman. Yes. I noted that the two young people 
who were with us at the outset--both said they did not start at 
a rave or at a club, but with usage with friends or in homes. 
So that suggests it is out on the street now.
    Mr. Keefe. I think it was always available coming into the 
streets. I think the rave clubs and the music are the venues to 
do it, not that it was always used in the rave clubs. As Mr. 
Bailey mentioned and as you see from our cases, we do not see 
large quantities of the drug appearing at the rave clubs. They 
have often taken it before they get there or they will take 
some drugs there or hide it.
    Chairman Lieberman. Yes, Mr. Bailey?
    Mr. Bailey. Senator, we had 125 high school students in, 
and we did not talk to them, they talked to us, which we 
learned a great deal, and one of the things which Mr. Keefe 
just brought up, they did not understand there was a problem 
with Ecstasy. They took it for granted that you take one pill, 
it will not hurt you and there will be no effect. Your 
parents--you do not have a smell--you do not have marijuana and 
your eyes are not dilated. And that was one of the reasons why 
the young people began taking it, because no one would know 
they were taking it, until we saw the young people here today.
    Chairman Lieberman. Absolutely.
    Dr. Vereen. Sir, I would like to add that there is a 
general pattern there where drugs get introduced into cultures 
or societies. In the case of Ecstasy, it was the raves and the 
source in Europe injecting the issue into the United States, 
taking advantage of ignorance on the part of young people, peer 
pressure, and this desire to explore or to fulfill their 
curiosity. On top of that, the drug is marketed specifically--
this drug has been marketed very differently than crack was 
marketed, and marketed very differently than heroin was 
marketed.
    Chairman Lieberman. How so?
    Dr. Vereen. Take a look at the pictures of those attractive 
pills.\1\ That is very different than in the case of crack, 
which was sold on the street.
---------------------------------------------------------------------------
    \1\ Pictures referred to appear in the Appendix on page 69.
---------------------------------------------------------------------------
    Chairman Lieberman. They have diagrams or symbols on the 
pills, and words like love or Adam, which is another name for 
the drug.
    Dr. Vereen. Yes, and initially targeted at young, upper 
middle-class folks who could afford to pay $20 or upwards of 
$50 for a single pill.
    Chairman Lieberman. It is an important point that the two 
of you have made. They have almost a candy look to them, or a 
pill look, which, of course, makes them seem less dangerous 
than, obviously, using a drug that requires needle injection or 
even smoking marijuana, because of the aroma. Let me come back 
to the international scene. We have heard testimony that the 
manufacturers remain mostly in Belgium and the Netherlands. Is 
this becoming a worldwide problem now? Is usage now worldwide 
or is it mostly concentrated in Western Europe and the United 
States?
    Mr. Keefe. Sir, it is worldwide. We have investigations we 
work through our country offices throughout the world, Asia, 
South Africa, Central America, South America--throughout the 
world, sir.
    Chairman Lieberman. OK, and I gather from your testimony 
that there are organized criminal operations in Israel and 
Russia that are the primary sources of MDMA coming into this 
country?
    Mr. Keefe. I would not necessarily say they are all in 
Russia or Israel. They are Russian-Israeli organized crime 
groups that come together, many of which are in Europe, not 
all, but directly with their command and control out of Israel, 
although we are working more closely with our counterparts in 
Israel on these investigations involving subjects that are from 
Israel.
    Chairman Lieberman. And one of you said you expect--maybe 
it was Detective Rutland--that you expect, because of the 
profitability here, that other traditional drug cartels, if I 
can use that expression, may be getting into this business now, 
including those from south of our border. Is that a fair 
assumption?
    Mr. Rutland. Absolutely. No question, sir. Lately we have 
dealt directly with cartel members that have ties with the 
newer source nations. I would like to comment, if I could, on 
the last question.
    Chairman Lieberman. Please.
    Mr. Rutland. The problem is the drug and its benign 
appearance. That is the problem with the younger adults and the 
kids. However, let's not limit it to just them, because we now 
know--all ages are affected. The problem has gone mainstream. 
The rave problem is one problem. It is now mainstream on the 
streets. When I first started dealing with narcotraffickers in 
MDMA, I was dealing at a street level on the streets, not in 
these venues, these rave parties. And it is important to know 
that because I have worked and infiltrated many of these rave 
parties. I know they have just been venues for this drug club 
distribution. But to your first question, the answer is without 
a doubt, that the traditional source nations are now involved 
and are tapping into this market.
    Chairman Lieberman. A very important point, that while as a 
society--and as parents, we are obviously protective and 
particularly concerned about the use of the drug among young 
people, it is also spreading among adults, as well. 
Parenthetically, would it be fair to expect of those in law 
enforcement that, as there comes to be competition for this 
market, they will have to deal with turf battles, criminal 
conflict, and violence associated with controlling the markets?
    Mr. Varrone. Yes, sir, Mr. Chairman. I think the Sammy 
``the Bull'' Gravano case is illustrative of that point.
    Chairman Lieberman. That is a very important point. Go 
ahead.
    Mr. Varrone. From all accounts--and it was a joint 
investigation by Federal and State and local agencies control 
of the market share in the Arizona area was what that 
organization was about, and quite frankly I believe violence 
was expected on their part.
    Chairman Lieberman. Just for the record, identify Mr. 
Gravano and what status he had when he was apprehended for 
distributing Ecstasy or overseeing the distribution of Ecstasy.
    Mr. Varrone. Well, sir, he was initially in the witness 
protection program. Upon withdrawing from the program, he 
resided in the Arizona area, and from photographs of his home, 
quite comfortably.
    Chairman Lieberman. And he was then apprehended for playing 
a central role in the distribution of MDMA in the Arizona area. 
Is that right?
    Mr. Varrone. Yes, sir, he and his family.
    Chairman Lieberman. His personal family or criminal family?
    Mr. Varrone. No, his personal family.
    Chairman Lieberman. Final question on this round for me, 
and then I will yield to Senator Bunning. Because of the 
different nature of the drug's appearance, it looks like a pill 
or even candy, is the distribution network different than it is 
for what we would think of as harder drugs, like heroin or 
cocaine, or is it comparable?
    Mr. Varrone. I think the distribution chain is much broader 
than traditional heroin and cocaine organizations are. I think 
the handling and locations of distribution are more widespread, 
such as college and high school campuses. In addition, this 
belief, this false notion, that MDMA is harmless is causing 
more and more people to engage in it.
    Chairman Lieberman. Mr. Bailey.
    Mr. Bailey. Senator, we do not have it up in the north end 
of Hartford or down in your area of New Haven.
    Chairman Lieberman. These are sort of urban, low-income 
areas?
    Mr. Bailey. It is urban. It is suburban. It is upper 
middle-class. That is where they are getting it, and as you 
pointed out, to make this pill, it takes about six cents, and 
they can sell it for $20 to $40, and that is why people are 
going into the business.
    Chairman Lieberman. It sounded to me from the testimony 
that Dayna and Philip gave at the outset, that part of their 
purchases were from peers. The distribution, therefore, seems 
to be moving to where the market is, as you described.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman. Just an 
observation from most of the testimony, heroin, cocaine, crack 
cocaine, the public perception of those drugs in the United 
States is bad; the public perception of MDMA is either unknown 
or good. Therefore, we have a terrible education problem, not 
only trying to educate our young adults and our college 
students, but also their parents. That seems to me to be our 
No. 1 educational issue, to make sure that they know there are 
consequences from taking Ecstasy, as we saw from your scan of 
the brain. Unless we can get that information out, this drug is 
going to stay around an awful long time, because it is coming 
in.
    Believe me, you said Los Angeles was one of the stops. 
Well, it just comes through Los Angeles to the Greater 
Cincinnati-Northern Kentucky Airport. The guy just stays on the 
plane or switches over to a domestic plane. For that matter, we 
have an awful lot of international flights coming from the area 
of Frankfurt, Paris, Rome, and all of the places that are 
becoming new distribution spots. My question is, is local law 
enforcement, the DEA and all other local and Federal agencies 
aware where these raves and other things are being published, 
that they are actually publicly putting notices or flyers up 
saying, ``Come on down, have some fun?'' How much of that, at 
the local level, Mr. Bailey, do you see, or if you do not see 
it, why do we know about it?
    Mr. Bailey. Well, in New York City, they rent a warehouse 
for a night. The reason why people were coming to Connecticut, 
they knew where the rave clubs were. They would wait outside 
for 4 or 5 hours to get in. They know they could get the supply 
in the rave clubs. But I think the testimony this morning from 
the young man was so important, when he said he had to commit 
crimes--burglaries, stealing TVs, tape recorders--to get the 
money to buy the drugs. I have never heard that before, and I 
think that is the message that has to go out of this meeting 
today, is that when you begin taking this pill, it can lead to 
criminal activities, and not just simple criminal activities--
stealing from your mother's purse or something--real criminal 
activities of burglaries, where the young man could go away in 
Connecticut for 5 to 10 years.
    Senator Bunning. But normally don't we have the same 
problem with the harder narcotics?
    Mr. Bailey. Absolutely.
    Senator Bunning. So we have to look at this as a hard 
narcotic, like crack cocaine. We know the addiction. But we do 
not have that same message out in the public.
    Mr. Bailey. That is the point, Senator, which Senator 
Lieberman said. Right now, in the suburban areas of 
Connecticut, and I am sure across this country, no one is 
fearful of this drug, because it is in the high schools, it is 
into the colleges, and more importantly there is no negative--
right now, there is no negative feeling about this drug. Up at 
the University of Connecticut--we have it up there, but this 
panel has finally brought out the image that it can cause brain 
damage and it can lead to crime.
    Senator Bunning. Let me ask Mr. Rutland; you mentioned the 
fact that more traditional narcotic traffickers are now 
involved, obviously for the money. What do you think are the 
long-term consequences of that, in direct competition to the 
people who have been bringing it in. If we have traditional 
narcotics traffickers doing it--there is going to be a 
conflict, a major conflict, between those new people in the 
business and the people who have traditionally brought illegal 
narcotics into the United States.
    Mr. Rutland. I agree, sir, and you point out probably our 
greatest challenge, one of our greatest challenges. Not only 
are we dealing with traditional narcotraffickers and the 
traditional source nations, sir, but we are now dealing with 
traditional narcotraffickers that are now living in the newer 
source nations and conducting business there. On some recent 
investigations of mine in Miami, it is definitely a problem. We 
are targeting those source nations aggressively.
    Senator Bunning. Can I ask anyone on the panel, how do we 
help the parents of these 14 year-olds, 13 year-olds, and on 
down, to recognize the symptoms? There are no eyes that you can 
look at, and there is no real knowledge about what we have to 
see in a young person that would tip us off. If I were raising 
nine kids, like I did, and this were to be a problem and I 
could see something that would tip me off--if they did not eat, 
if they dropped out of school, yes, but these are symptoms that 
come after the fact--how do we recognize it quickly? Yes, go 
ahead, Doctor.
    Dr. Leshner. One thing I think that is vastly important is 
to get the message out very rapidly that this is an equal 
opportunity destroyer, that this is a problem that is happening 
in every community and internationally, not just in this 
country, and to every group of kids. Therefore, every parent's 
child is literally at risk. The second thing is that there are 
some indicators that should alert parents; for example, mood 
changes. This is a drug, as you heard from Dayna and from 
Philip, that has very dramatic effects on mood while you are 
taking it, but also after you have taken it. It has to do with 
the brain chemical effects. But there is a verifiable, very 
real mood change that occurs after it. The other thing that 
happens that should alert parents is that it has long-lasting 
effects on memory. Now, it does not turn you into a school 
failure, but it certainly would take the edge off school 
performance. The way in which it interferes with the memory in 
a long-lasting way might take your child from getting 90's to 
getting 70's. Therefore, any change in school performance 
should be used as a hint to a parent.
    Senator Bunning. Well, the fact of the matter is that most 
other narcotics have the same effect. When you have crack 
cocaine or just regular cocaine or heroin, there is an ugliness 
to it. Marijuana does not have that same ugliness, except for 
the smell. You can tell if you are around somebody who is 
smoking marijuana--you can tell that they have been smoking 
marijuana. With this drug, you do not see anything except a 
pill. You have showed what you took away at the airport, but 
the fact of the matter is they must have some local places that 
are turning those into pills. Have we concentrated local law 
enforcement and Federal law enforcement in discovering where 
they are changed over to the pill?
    Mr. Varrone. Sir, most of the pill pressing is done 
foreign.
    Senator Bunning. There is not much done in the United 
States?
    Mr. Varrone. There is some, but to a much lesser extent. 
The pill presses are regulated, I believe, by the Drug 
Enforcement Administration.
    Mr. Keefe. Yes, sir. We do not see that many cases to date 
in the United States where we have had pill-presses seized.
    Senator Bunning. Or their producers.
    Mr. Keefe. Yes, sir.
    Senator Bunning. Just except a few?
    Mr. Keefe. Yes, sir.
    Senator Bunning. So it is still all being imported just as 
we see it on the chart?
    Mr. Keefe. That is correct.
    Chairman Lieberman. Senator Bunning, I think Detective 
Rutland would like to respond to the last question.
    Senator Bunning. Go ahead, Detective.
    Mr. Rutland. Just to your last question, I think it is 
paramount--you were talking about looking for signs--it is 
paramount that parents in this country understand the nexus 
between the drug paraphernalia here, the club drug 
paraphernalia and the drug itself. There is a direct connection 
between the paraphernalia that is now used with this drug in 
these different venues. Surgical masks, water bottles, glow 
sticks, Vicks inhalers--parents need to understand and educate 
themselves that this paraphernalia is not a trend. This 
paraphernalia is a nexus between the drug and its use.
    Senator Bunning. May I ask the Chairman, does the bill that 
Senator Graham has deal with that type of thing?
    Chairman Lieberman. This will not come off your time. It is 
no problem. The bill which I have co-sponsored--Senator 
Grassley is also on it--has four major purposes; one is the 
education of young people about the negative health effects; 
two is education of State and local law enforcement and also 
funding; three is adequate funding for the NIH for research; 
and then fourth is State and local government initiatives.
    Senator Bunning. That does exactly what we need to get 
done.
    Chairman Lieberman. Yes. We have got some funding in here 
to do exactly what you are talking about.
    Senator Bunning. Thank you very much for the time.
    Chairman Lieberman. Thanks, Senator Bunning. I am going to 
ask a few more questions, and if you have any others you would 
like to ask, please do. You did clarify a question I was going 
to ask, which was that Mr. Varrone indicated that there had 
been the discovery of a lab manufacturing MDMA, Ecstasy, 
outside Los Angeles. I had understood that there was very 
little of this happening in the United States, but I gather 
that was a rare find, that it still remains mostly foreign-
produced; is that correct?
    Mr. Varrone. Yes, sir. The manufacturing process is 
difficult, but there have been a few labs discovered. There was 
one discovered on a college campus in Boulder, Colorado. That 
lab, and I believe Mr. Keefe may know of more labs, having 
primacy in that area.
    Mr. Keefe. Sir, I think you referred to in your opening 
statement the one in Stonington, Connecticut, which was a small 
lab, obviously a very brilliant student, who was able to put 
the formula together and work with some of the chemicals. The 
primary chemicals are List I chemicals here in the United 
States. There are only about 84 companies that actually involve 
with them, and we have pretty good registration work with them 
in checking that. That is not to say that we, being so 
innovative in the United States, will not smuggle chemicals in 
here, will not attempt to do clandestine labs. At this point, 
we have seen a number of them, as Mr. Varrone said, near 
college campuses, a couple of large ones. We have also seen 
chemical labs in Canada, on the U.S. border, which we have been 
working with our counterparts, with the Royal Canadian Mounted 
Police, on those. Certainly organized crime lab operators and 
whatnot will work together to build labs, and it is certainly a 
concern of ours.
    As Mr. Rutland stated, that is why we all need to work 
together to identify this information and share it, so that we 
can work on these cases.
    Chairman Lieberman. So this is not easy to make?
    Mr. Keefe. No, sir. You do not have to be a chemist, but 
you have to have some background, although you can get the 
formulas off the Internet.
    Chairman Lieberman. Right. Dr. Leshner, do you have 
anything to add to that? In other words, it is not just mixing 
a few things together. You have got to know how to do this.
    Dr. Leshner. Right, this is serious chemistry.
    Chairman Lieberman. Right. While I have you there--and if 
you or any other witnesses do not have this information, maybe 
Dr. Vereen, I will ask you to submit it for the record--I 
gather there have been some deaths that are associated with 
Ecstasy use, and I also have seen numbers, as I mentioned 
earlier, about remarkable increases in emergency room mentions 
of Ecstasy. Do you have any data on that?
    Dr. Leshner. We do. First of all, there is tremendous 
individual differences in susceptibility to the acute, the 
short-term effects of the drug. So some people are tremendously 
reactive, both to its stimulant effects and to its effect of 
raising body temperature. The Substance Abuse and Mental Health 
Services Administration just released the emergency data from 
the DAWN survey, and we went from something like 250 emergency 
room cases of Ecstasy in 1994, to over 4,000 in the year 2000. 
This is a tremendous increase. This is a representative sample. 
It is not the total of emergency room cases. So those people 
who are particularly susceptible to the drug can go into 
convulsions, febrile convulsions, as you would with any fever. 
People have had strokes. People have had heart attacks. It is 
very, very powerful stimulant, and therefore it has all of the 
associated dangers with it.
    Chairman Lieberman. Dr. Vereen, do you want to add anything 
to that?
    Dr. Vereen. Yes, that is very important information. It is 
our job to take that and to turn it into something that is 
useful. Parents need to be aware that they may not see these 
findings in the emergency room every day, but we have to get 
the information out there. And as Senator Bunning was 
indicating earlier, this concern and challenge about getting 
messages out to parents about what to look for, there are 
efforts to help parents and young people in the steps before 
that.
    For example, our National Youth Anti-Drug Media Campaign 
has messages for young people on how to refuse invitations from 
peers, because when you heard from our two young witnesses 
earlier, it was in the setting of peers that they took the 
drug. There are negative consequences that parents need to be 
able to sit down and talk to their young folks about, and there 
are parenting skills that can be shared, as well. In addition, 
we try to get information out into television by talking to 
writers and producers. We have recreated in some ways the panel 
that you have in front of you, to educate the folks who write 
for daytime television and popular television, so that accurate 
information gets out there early.
    Chairman Lieberman. Good. Dr. Vereen, you had interesting 
testimony about the four stages of drug use or past epidemics. 
Just give me those four stages again.
    Dr. Vereen. Yes. There is the initiation phase, and then 
there is the expansion phase, and then the plateau, and then 
the decline.
    Chairman Lieberman. And now we are in the expansion phase 
for Ecstasy.
    Dr. Vereen. Yes.
    Chairman Lieberman. Growing rapidly, some alarming numbers, 
about one out of nine, I think you said, of high school seniors 
using it, still lower than other drug usage. So the question is 
obvious. What can we do all together to try to stop it, to get 
it to the plateau and reduction phase so it does not go through 
the normal sequence--which would be continuing expansion. I 
know that last year we adopted legislation that increased the 
penalties under Federal law for--is it Ecstasy possession and 
sale? The question is, and let me ask you all to take a shot at 
this, what are the one or two most significant things we could 
do now? Let me ask another question. Are we working enough 
together now or is law enforcement working together enough now? 
Dr. Vereen.
    Dr. Vereen. Yes, I can tell you unequivocally, and you have 
heard directly from law enforcement, but more importantly, the 
collaboration is happening faster than it has in other 
epidemics.
    Chairman Lieberman. You all clearly identified this as a 
priority concern from your testimony, and this is something 
that you see happening and you are trying, each in your own 
way, to do something about it. So let me go back to my previous 
question then. What are a couple of things that we could do, we 
in Congress, perhaps members of State legislatures, local 
governments, to try to stop the expansion and have the usage of 
this drug recede? Let's just go down the row. Dr. Vereen.
    Dr. Vereen. One thing we can do is learn from what we have 
done in the past. We got guidance to develop a methamphetamine 
task force several years ago. That allowed us to go out across 
the country to meet with local officials and groups, and 
understand the methamphetamine problem as it was spreading 
across the country from west to east. This drug is spreading in 
a different fashion, but certainly a collaborative effort, a 
task force that would allow us to focus even further, as we 
have now, to tailor a response for this particular drug. There 
are some general issues we have to deal with in every epidemic, 
as I have tried to outline, but each drug takes advantage of 
vulnerabilities in different communities, and we have to help 
equip our communities to thwart the spread of these drugs. We 
have to do prevention. We have to do education. We work with 
law enforcement. We have to pay attention to the influx from 
the outside of this particular drug, and all of that has to be 
coordinated and reviewed, coordinated and reviewed.
    Chairman Lieberman. I am pleased to tell you that the bill 
that I referred to does call for the creation of an interagency 
Ecstasy task force. Dr. Leshner, what would you say are the one 
or two things we could do together here?
    Dr. Leshner. The biggest determinant of use rates over 
history has been the perception of harm or the perception or 
risk. As the perception of harm goes down, use goes up, and the 
reverse. So my view is that among the most important things we 
can do is get accurate, non-hyperbolic--it is important that it 
be accurate--information about the dangers of Ecstasy use out 
into every community in this country, in ways that can actually 
be used by people. That is, we have to speak to people where 
they are, not where we are, and talk to them about the nature 
of this substance and the danger it poses for our young people 
and for generations to come.
    Chairman Lieberman. Mr. Varrone.
    Mr. Varrone. Yes, sir. Mr. Chairman, the concept of an 
interagency Ecstacy task force, I think, is excellent. We 
currently have a unit where we coordinate investigative and 
introdiction activity within Customs and share our findings. 
However, a large task force seeing where we can put out our 
findings to the larger community and have increased contact 
with DEA and the international community, I think, would be 
very helpful. This task force would also benefit us in 
addressing the active, and unfortunately successful, campaign 
to market Ecstasy across this country. It would enable us to 
more effectively convey the serious and harmful effects of MDMA 
use. I have high school children myself, and I am often alarmed 
when I talk at the dinner table about Ecstasy, and they seem to 
know as much as I do, if not more. That is certainly very 
alarming as a parent. I really think that education and public 
outreach getting the message out quickly to our young people, 
is vital to our success. To date, we have had success in this 
area through the use of our Customs website.
    Chairman Lieberman. Mr. Keefe.
    Mr. Keefe. Sir, the continued support by Congress to assist 
law enforcement in attacking these criminal organizations that 
bring this drug into our country, and assist our agents 
overseas who are working with our foreign counterparts 
throughout the world to attack these global organizations is 
very important.
    Chairman Lieberman. So some of that is adequate funding.
    Mr. Keefe. Continued adequate funding, certainly, to attack 
them. As we move in certain directions and as we see with our 
foreign counterparts as they attack it, they will move in 
different directions. Whether they will come into Cincinnati 
and bypass L.A.--as we continue to work together in law 
enforcement, to be supported so that we can get that 
information out, so that we can continue to attack them from a 
law enforcement--and echoing Mr. Varrone's comments of getting 
out the right message through demand reduction programs, to 
educate the young people and the parents of this country, is 
very important.
    Chairman Lieberman. Do you need additional law enforcement 
authority, or is there enough in the existing laws?
    Mr. Keefe. I believe for Ecstasy, sir, the recent increase 
in the penalties will be certainly helpful. I think they have 
been adequate. I do not have all the expertise here--knowledge 
right now. Some of the other date-rape drugs, sir, I think we 
might want to look into some of the sentencing requests on that 
so that they do not move from one area to another. As we 
attack, they will come in different ways, sir.
    Chairman Lieberman. There was reference in somebody's 
testimony to use of a so-called crack-house statute.
    Mr. Keefe. Yes, sir.
    Chairman Lieberman. Which I have before me, which just 
generally makes it unlawful to, ``Manage or control any 
building, room, or enclosure, knowingly and intentionally rent, 
lease or make available for use for the purpose of unlawfully 
manufacturing, storing, distributing, or using a controlled 
substance.'' Is that something that you are using now to combat 
Ecstasy?
    Mr. Keefe. Yes, we are, sir. We have used it in New 
Orleans, in Louisiana, and in other places similar to what Mr. 
Bailey is doing on a State level in Connecticut. I think we 
need to bring all these efforts together, whether it is civil 
or criminal, to do everything we can to work together to close 
these places where people are making money there, using kids to 
make money.
    Chairman Lieberman. Well-said. Mr. Bailey.
    Mr. Bailey. I mentioned before we met with 125 high school 
students in Connecticut, and what really shocked me was they 
told me--and they met and came out with a list--that they 
wanted to have the DARE program--fine, it is in grammar 
school--but they felt that it should be in high school, because 
they would finally find out the new drugs out there. When they 
were told about marijuana and cocaine and crack in grammar 
school, they said by the time they got to high school, they 
forgot all that and they did not know about Ecstasy. They did 
not know about the club drugs. They did not know about Special 
K, and they wanted to have that information in the high 
schools, because they had no knowledge of any of these new 
drugs at all.
    Chairman Lieberman. That is exactly what I have heard in 
visits with high school students in Connecticut, exactly the 
same. Detective Rutland.
    Mr. Rutland. Mr. Chairman, the previous changes in the 
guidelines regarding MDMA, both at the Federal level and the 
State level, I believe have been very effective. I have seen 
direct results. I am pleased to say I was an active part of the 
National Youth Anti-Drug Media Campaign with the ONDCP. We went 
out and gave the message to these screenwriters, who then put 
the message out on television and radio. I, in addition, have 
seen direct results there. All of these different methods have 
been effective. I see the results now.
    I think Dr. Vereen was directly on point when he mentioned 
this national task force. I think a national task force that 
focused simply on MDMA, in conjunction with different Federal 
agencies, different outside foreign agencies, such as Interpol, 
Europol, would, in addition, be very effective.
    Chairman Lieberman. Thank you. Senator Bunning.
    Senator Bunning. I just would like to reinforce what I said 
before. The methamphetamine madness took Kentucky by storm. We 
have got places that are producing it all over Kentucky. My 
fear is that even though this drug is more sophisticated, you 
can get the same type of production because it is so 
successful, and then distribute it, not only from importing 
those funny looking pills, but you can bring them in and make 
them look like aspirin, locally. I know that the sophistication 
of the chemical mix makes it a little more difficult, but that 
has never, ever stopped criminal narcotic distribution in the 
United States in any stretch--crack cocaine, cocaine, all have 
local distribution centers.
    I would hope, through this bill, that we can at least 
prevent that from starting. But we have an awful lot of work to 
do in the education of parents and children and young adults, 
particularly, and the peer pressure that goes with being a 
young adult, that you could just have a pill handed to you and 
right there you are hooked. It is just like crack cocaine, 
nothing more addicting than that, that I know of. Of course, 
the level of being addicted varies with the person. I hope this 
information that we got today will stimulate our interest in 
moving that bill to the floor. I know that I have been 
uninformed, and now I am a lot more informed. Thank you for 
being here today, and hopefully, Detective Rutland, we can get 
right to the heart of things. Thank you.
    Chairman Lieberman. Senator Bunning, thanks. Thanks for 
your participation in this hearing today. This has been a very 
important, informative hearing and, of course, I hope the word 
goes out from here about the dangers of this drug, just as 
Senator Bunning said. That is probably the most important thing 
that could happen from here, but I want to in some sense, issue 
a challenge to all of us, which is that we now see yet another 
problem, another threat to our kids and to our society. The 
question is whether we are going to be able to get together 
with a combination of education, prevention and aggressive law 
enforcement, adequately supported, and research--I would add, 
Dr. Leshner--so we will be able to curtail what would otherwise 
be the extended lifespan of this MDMA, Ecstasy, crisis--
epidemic--and to knock it down.
    We may come back in September and do another hearing on 
this subject, maybe ask Senator Graham, Senator Grassley, and 
others who have worked on this legislation with us, to come in 
and bring others in, as well. Then, as my colleague said, this 
is serious enough to see if we can get this bill out and passed 
this year. Considering all the other things we spend money on, 
this is a relatively modest appropriation with a major 
potential effect. We were all adolescents once. We know the 
struggles of adolescence, and we know the extent to which 
adolescents, by their very nature, live on the edge. And, this 
is today's threat to them as they go to the edge, seemingly for 
many of them, in an innocuous, harmless way. This threat may 
lead them to hurt themselves seriously for the rest of their 
lives, even end their lives.
    So I thank all of you on this panel. I thank again Dayna 
and Philip for their compelling testimony that started this 
out. We are going to keep the record of the hearing open for a 
week.
    [The prepared statement of Senator Levin follows:]

                  PREPARED STATEMENT OF SENATOR LEVIN
    Thank you Mr. Chairman for holding this hearing. I think it's 
extremely timely.
    I'm alarmed at what I've been reading about the rapid growth in 
MDMA abuse across the country and I'm especially concerned about what's 
happening in Michigan. In Detroit alone, the number of poison control 
cases from MDMA more than doubled between 1998 and 2000. In the seven 
States that make up the Great Lakes Organized Crime Drug Enforcement 
Task Force region, 30 agencies have reported that MDMA is ``readily 
available.''
    In September of last year, customs officials seized two MDMA 
shipments at the Detroit Metropolitan Airport. And in August of last 
year, Canadian authorities intercepted more than seven and a half 
million dollars worth of MDMA in a container of automotive parts that 
originated in Belgium and was believed to be bound for Michigan.
    Among other problems, the increased demand for MDMA has opened new 
avenues for organized crime. In fact, law enforcement officials in my 
State report that Israeli and Russian syndicates have already secured 
control of the transport and wholesale distribution of MDMA in 
Michigan. Unfortunately, I believe that an increase in violence will 
come in the wake of the MDMA trade.
    The rapidly rising number of people abusing MDMA means that we may 
be approaching this situation faster than we expected. In fact, just 
last week USA Today reported that emergency room visits involving 
Ecstasy increased 58 percent between 1999 and 2000. We have to do 
something to stem the tide of abuse. I hope this hearing allows us to 
better understand what needs to be done and provides some insight as to 
how the Congress can help. Thank you Mr. Chairman and I look forward to 
hearing from the witnesses.

    Chairman Lieberman. We may have some additional questions 
we want to ask you to answer for the record. Until then, thank 
you, and the hearing is adjourned.
    [Whereupon, at 11:47 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5475.001

[GRAPHIC] [TIFF OMITTED] T5475.002

[GRAPHIC] [TIFF OMITTED] T5475.003

[GRAPHIC] [TIFF OMITTED] T5475.004

[GRAPHIC] [TIFF OMITTED] T5475.005

[GRAPHIC] [TIFF OMITTED] T5475.006

[GRAPHIC] [TIFF OMITTED] T5475.007

[GRAPHIC] [TIFF OMITTED] T5475.008

[GRAPHIC] [TIFF OMITTED] T5475.009

[GRAPHIC] [TIFF OMITTED] T5475.010

[GRAPHIC] [TIFF OMITTED] T5475.011

[GRAPHIC] [TIFF OMITTED] T5475.012

[GRAPHIC] [TIFF OMITTED] T5475.013

[GRAPHIC] [TIFF OMITTED] T5475.014

[GRAPHIC] [TIFF OMITTED] T5475.015

[GRAPHIC] [TIFF OMITTED] T5475.016

[GRAPHIC] [TIFF OMITTED] T5475.017

[GRAPHIC] [TIFF OMITTED] T5475.018

[GRAPHIC] [TIFF OMITTED] T5475.019

[GRAPHIC] [TIFF OMITTED] T5475.020

[GRAPHIC] [TIFF OMITTED] T5475.021

[GRAPHIC] [TIFF OMITTED] T5475.022

[GRAPHIC] [TIFF OMITTED] T5475.023

[GRAPHIC] [TIFF OMITTED] T5475.024

[GRAPHIC] [TIFF OMITTED] T5475.025

[GRAPHIC] [TIFF OMITTED] T5475.026

[GRAPHIC] [TIFF OMITTED] T5475.027

[GRAPHIC] [TIFF OMITTED] T5475.028

[GRAPHIC] [TIFF OMITTED] T5475.029

[GRAPHIC] [TIFF OMITTED] T5475.030

[GRAPHIC] [TIFF OMITTED] T5475.031

[GRAPHIC] [TIFF OMITTED] T5475.032

[GRAPHIC] [TIFF OMITTED] T5475.033

[GRAPHIC] [TIFF OMITTED] T5475.034

[GRAPHIC] [TIFF OMITTED] T5475.035

[GRAPHIC] [TIFF OMITTED] T5475.036

[GRAPHIC] [TIFF OMITTED] T5475.037

[GRAPHIC] [TIFF OMITTED] T5475.038

[GRAPHIC] [TIFF OMITTED] T5475.039

[GRAPHIC] [TIFF OMITTED] T5475.040

[GRAPHIC] [TIFF OMITTED] T5475.041

[GRAPHIC] [TIFF OMITTED] T5475.042

[GRAPHIC] [TIFF OMITTED] T5475.043

[GRAPHIC] [TIFF OMITTED] T5475.044

[GRAPHIC] [TIFF OMITTED] T5475.045

[GRAPHIC] [TIFF OMITTED] T5475.046

[GRAPHIC] [TIFF OMITTED] T5475.047


</pre></body></html>
